<html>
<title> - WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 115-421]
[From the U.S. Government Publishing Office]


                                               S. Hrg. 115-421

                           WORLDWIDE THREATS

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-013 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>                    
       
       
   

                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director

                                  (ii)

                                 

                         C O N T E N T S

_________________________________________________________________

                              May 23, 2017

                                                                   Page

Worldwide Threats................................................     1

Coats, Honorable Daniel R., Director of National Intelligence....     7
Stewart, Lieutenant General Vincent R., USMC, Director, Defense      44
  Intelligence Agency.

Questions for the Record.........................................   104

                                 (iii)

 
                           WORLDWIDE THREATS

                              ----------                              


                         TUESDAY, MAY 23, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Kaine, King, Heinrich, 
Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. The Senate Armed Services Committee meets 
this morning to receive testimony on worldwide threats.
    We are pleased to welcome our distinguished witnesses, Dan 
Coats, who is the Director of National Intelligence, and 
Lieutenant General Vince Stewart, Director of the Defense 
Intelligence Agency.
    Out of respect for the scheduling commitments of our 
witnesses and a unanimous request on the part of all our 
members, we will conclude this hearing at 11:30. In the 
interest of time and to ensure the members of the committee to 
be able to ask their questions, I will be very brief. I know 
that comes as a disappointment, especially to the Senator from 
South Carolina.
    I would ask our witnesses to please submit their written 
statements for the record, if they can. That is not required.
    Last night's horrific attack in Manchester was a gruesome 
reminder that the world is on fire. Everywhere we turn, we can 
see threats to the rules-based order that underpins global 
security and prosperity. Yet, when it come understood the great 
national security challenges we face, U.S. policy and strategy 
are consistently lacking. Whether it is China, Russia, North 
Korea, Iran, or radical Islamist terrorism, I have heard few 
compelling answers about how the United States intends to use 
its alliances, its trade, its diplomacy, its values, but most 
of all, its military to protect and defend our national 
interests and the rules-based order that supports them, 
especially with sequestration still the law of the land.
    This is still a young administration. Cogent, coherent 
policy and strategy take time to develop. We should be ever 
mindful that our adversaries are not waiting for us to get our 
act together. Time is of the essence.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, in keeping with your spirit, I 
will abbreviate my statement, but ask that the full statement 
be made part of the record.
    Chairman McCain. Without objection.
    Senator Reed. Thank you, Mr. Chairman, for holding this 
important hearing. I also want to thank our witnesses for 
appearing here today to provide their analysis of the national 
security threats and other challenges facing us around the 
world.
    I would also like to welcome back our former colleague, 
Director Coats, for his first appearance before the committee 
and, General Stewart, thank you for your continued strong 
leadership of the intelligence professionals of the Defense 
Intelligence Agency.
    The national military strategy is organized, appropriately 
so, around the so-called four plus one primary threats facing 
our nation today, namely Russia, China, North Korea, Iran, and 
the enduring non-state challenge of violent extremism, a tragic 
example of what we witnessed last evening in Manchester, 
England. Our hearts and prayers and thoughts go out to the 
people of England and people of the world. We are pursuing 
these issues, and I know you gentlemen are at the forefront in 
terms of our intelligence efforts, and I appreciate what you 
do.
    The four plus one threats I have just touched upon inform 
the capabilities we develop, the size of the force we build, 
and the scenarios we plan against. However, to paraphrase 
former Secretary Gates, we have a near perfect record in 
predicting the nature of the next threat we will face: we have 
always gotten it wrong. We rely heavily on our intelligence 
community to highlight those emerging threats, the ones that we 
have not identified already, and I hope our witnesses will 
provide the committee with their candid thoughts on the other 
challenges we should pay close attention to moving forward, in 
addition to the four plus one that I have outline.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed
    Thank you, Mr. Chairman for holding this important hearing. I also 
want to thank our witnesses for appearing today to provide their 
analysis of the national security threats and other challenges facing 
us around the world today. I would like to welcome back our former 
colleague, Director Coats, for his first appearance before the 
committee and, General Stewart, thank you for your continued strong 
leadership of the intelligence professionals of the Defense 
Intelligence Agency.
    The National Military Strategy is organized, appropriately so, 
around the so-called ``Four plus one'' primary threats facing our 
nation today--namely Russia, China, North Korea, Iran, and the enduring 
non-state challenge of violent extremism.
    Our assistance to partners on the ground in Syria, Iraq, 
Afghanistan, and Libya is helping them to make steady progress in 
reclaiming areas once held by ISIS. Similarly, we continue to pressure 
al Qaeda in its various forms. I hope that our witnesses today will 
provide their assessment of the relative strength of these groups and 
where such threats are likely to metastasize next.
    Russia is leveraging every tool at its disposal--including 
military, diplomatic, economic, and information operations--to assert 
its narrative of great power status in Europe, the Middle East, North 
Africa and elsewhere. President Putin is using the same finely-honed 
influence techniques that we saw in the 2016 presidential elections to 
influence Russia's immediate neighbors; to undermine democratic 
processes in France, Germany, and the Czech Republic; and to sow 
divisions within NATO and the European Union. We need to have a clear 
understanding from the intelligence community of what the Russian 
malign influence threat looks like, including in cyberspace, and how we 
can both defend against and deter these threats against the core 
institutions of our democratic societies.
    North Korea presents one of the most difficult national security 
challenges our country faces today. North Korea's nuclear and missile 
programs are developing at an alarming speed, and we do not have a set 
of options that would lead to a quick and certain strategy to prevent 
North Korea from developing a nuclear missile that can reach the United 
States. The problem set presented by the North Korean programs will 
require a sustained and massive diplomatic effort by the State 
Department, international cooperation, and maintaining a range of 
military options.
    The linchpin to deterring North Korea's nuclear and missile 
programs is cooperation from China. China provides the lifeline of 
funds and goods that keep the North Korean economy afloat. It is up to 
the Chinese Government to exert sufficient pressure on Kim Jong-un to 
bring him to the negotiating table. We need to work with China, and our 
allies in the region, to demonstrate that the denuclearization of the 
peninsula is the only path forward for North Korea.
    Complicating this scenario is the fact that China itself poses a 
long-term threat to the rules based order in the Asia Pacific. One are 
that gives the international community concern is China's refusal to 
abide by the United Nations Convention on the Law of the Sea in 
resolving its maritime disputes with its neighbors. Another concern is 
China's use of economic coercion and bullying of its smaller and more 
vulnerable neighbors. The economic retaliation by China, for example, 
against our ally, South Korea, for accepting the THAAD deployment to 
help defend against the North Korean missile threat, is unwarranted. 
Instead of actions that destabilize the region, China should work with 
its neighbors to resolve its disputes peacefully, through existing 
legal mechanisms.
    Lastly, with regard to Iran, the State Department and the IAEA have 
both recently certified that Iran is living up to its commitments under 
the Joint Comprehensive Plan of Action or JCPOA. These certifications 
are, in no small part, informed by the diligent work of our 
intelligence community in collaboration with our other international 
partners. While the JCPOA addressed the most significant threat posed 
by Iran, it did not cover other challenges including Iran's malign 
activities in Syria, Yemen, and elsewhere, or its ballistic missile 
development efforts. Iran may be at an inflection point following last 
Friday's Presidential vote in which President Rouhani was re-elected by 
a wide margin over other hardline candidates. I hope Director Coats and 
General Stewart will provide their assessment of Iran's behavior since 
implementation of the JCPOA and how last week's election may affect 
their behavior going forward.
    The ``4 plus one'' threats I have just touched upon inform the 
capabilities we develop, the size of the force we build, and the 
scenarios we plan against. However, to paraphrase former Secretary 
Gates--we have a near perfect record in predicting the nature of the 
next threat we will face, we've always gotten it wrong. We rely heavily 
on our intelligence community to highlight those emerging threats and I 
hope our witnesses will provide the committee with their candid 
thoughts on the other challenges we should pay close attention to 
moving forward.
    Thank you, Mr. Chairman.

    Chairman McCain. Since a quorum is now present, I ask the 
committee to consider 6 civilian nominations and a list of 818 
pending military nominations. First, I ask the committee to 
consider the nomination of the Honorable David L. Norquist to 
be Under Secretary of Defense, Comptroller; Robert Daigle to be 
Director of Cost Assessment and Program Evaluation, Department 
of Defense; Elaine McCusker to be Principal Deputy Under 
Secretary of Defense, Comptroller; Kari Bingen to be Principal 
Deputy Under Secretary of Defense for Intelligence; Robert S. 
Karem to be Assistant Secretary of Defense for International 
Security Affairs; Mr. Kenneth P. Rapuano to be Assistant 
Secretary of Defense for Homeland Security and Global Security.
    Is there a motion to favorably report these six nominations 
to----
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Inhofe. Second.
    Chairman McCain. All in favor, say aye.
    [Chorus of ayes.]
    Chairman McCain. The ayes have it.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on May 23, 2017.
     1.  BG Sean L. Murphy, USAF to be major general (Reference No. 92)

     2.  In the Navy there are 2 appointments to the grade of rear 
admiral (lower half) (list begins with John A. Okon) (Reference No. 
109)

     3.  In the Navy there are 19 appointments to the grade of rear 
admiral (lower half) (list begins with Edward L. Anderson) (Reference 
No. 111)

     4.  In the Navy there is 1 appointment to the grade of captain 
(Susan M. McGarvey) (Reference No. 147)

     5.  In the Navy there is 1 appointment to the grade of commander 
(Sheila I. Almendras-Flaherty) (Reference No. 168)

     6.  In the Navy there is 1 appointment to the grade of captain 
(Adrian D. Ragland) (Reference No. 170)

     7.  In the Marine Corps Reserve there are 5 appointments to the 
grade of colonel (list begins with Mark S. Jimison) (Reference No. 171)

     8.  In the Navy there is 1 appointment to the grade of captain 
(Christopher R. Desena) (Reference No. 207)

     9.  In the Navy there is 1 appointment to the grade of captain 
(Kenneth L. Demick, Jr.) (Reference No. 212)

    10.  In the Navy there is 1 appointment to the grade of captain 
(Michael C. Bratley) (Reference No. 214)

    11.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Jason G. Lacis) (Reference No. 233)

    12.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Kevin J. Goodwin) (Reference No. 235)

    13.  MG Bradford J. Shwedo, USAF to be lieutenant general and 
Chief, Information Dominance and Chief Information Officer, Office of 
the Secretary of the Air Force (Reference No. 300)

    14.  MG Giovanni K. Tuck, USAF to be lieutenant general and 
Commander, Eighteenth Air Force, Air Mobility Command (Reference No. 
302)

    15.  LTG James C. McConville, USA to be general and Vice Chief of 
Staff of the Army (Reference No. 303)

    16.  BG Stuart W. Risch, USA to be major general (Reference No. 
304)

    17.  MG Thomas C. Seamands, USA to be lieutenant general and Deputy 
Chief of Staff, G-1, U.S. Army (Reference No. 305)

    18.  Col. Mark E. Black, USAR to be brigadier general (Reference 
No. 306)

    19.  Col. Matthew V. Baker, USAR to be brigadier general (Reference 
No. 307)

    20.  BG Chris R. Gentry, USAR to be major general (Reference No. 
308)

    21.  BG Robert A. Karmazin, USAR to be major general (Reference No. 
309)

    22.  BG Marion Garcia, USAR to be major general (Reference No. 310)

    23.  BG Joseph E. Whitlock, USAR to be major general (Reference No. 
311)

    24.  Col. Miguel A. Castellanos, USAR to be brigadier general 
(Reference No. 312)

    25.  Col. Windsor S. Buzza, USAR to be brigadier general (Reference 
No. 313)

    26.  Col. Randall V. Simmons, Jr., USAR to be brigadier general 
(Reference No. 314)

    27.  Col. Michael D. Wickman, USAR to be brigadier general 
(Reference No. 315)

    28.  In the Army there are 32 appointments to the grade of major 
general (list begins with Carl A. Alex) (Reference No. 316)

    29.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Kalie K. Rott) (Reference No. 317)

    30.  In the Army there is 1 appointment to the grade of major 
(Norma A. Hill) (Reference No. 318)

    31.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Frank C. Pescatello, Jr.) (Reference No. 319)

    32.  In the Army there is 1 appointment to the grade of major 
(Basim M. Younis) (Reference No. 320)

    33.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Stanley F. Gould) (Reference No. 321)

    34.  In the Army there is 1 appointment to the grade of major 
(Scott W. Fisher) (Reference No. 322)

    35.  In the Army Reserve there are 16 appointments to the grade of 
colonel (list begins with Gary L. Beaty) (Reference No. 323)

    36.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Daniel J. Convey) (Reference No. 324)

    37.  In the Army there are 2 appointments to the grade of major 
(list begins with Sophia Dalce) (Reference No. 325)

    38.  In the Army there is 1 appointment to the grade of colonel 
(Dawn E. Elliott) (Reference No. 326)

    39.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (D012528) (Reference No. 327)

    40.  In the Army there is 1 appointment to the grade of major 
(Benjamin W. Hillner) (Reference No. 328)

    41.  In the Army there is 1 appointment to the grade of major 
(Celina S. Pargo) (Reference No. 329)

    42.  In the Army there is 1 appointment to the grade of major (Paul 
R. Ambrose) (Reference No. 330)

    43.  In the Army there are 2 appointments to the grade of major 
(James L. Dungca) (Reference No. 331)

    44.  In the Army there is 1 appointment to the grade of colonel 
(Charles R. Burnett) (Reference No. 332)

    45.  In the Navy there is 1 appointment to the grade of commander 
(Evan M. Colbert) (Reference No. 333)

    46.  In the Navy there is 1 appointment to the grade of captain 
(Luciana Sung) (Reference No. 334)

    47.  In the Navy there is 1 appointment to the grade of captain 
(William A. Schultz) (Reference No. 335)

    48.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (William L. McCoy) (Reference No. 336)

    49.  In the Navy there is 1 appointment to the grade of Captain 
(Chris F. White) (Reference No. 337)

    50.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Karl M. Kingry) (Reference No. 338)

    51.  In the Navy there is 1 appointment to the grade of commander 
(Michael A. Polito) (Reference No. 339)

    52.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Raymond J. Carlson, Jr.) (Reference No. 340)

    53.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Javier E. Vega) (Reference No. 341)

    54.  In the Marine Corps there is 1 appointment to the grade of 
major (Sergio L. Sandoval) (Reference No. 342)

    55.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Christopher M. Allen) (Reference No. 343)

    56.  In the Army there are 3 appointments to the grade of brigadier 
general (list begins with Susan K. Arnold) (Reference No. 377)

    57.  Col. Richard J. Lebel, USAR to be brigadier general (Reference 
No. 378)

    58.  Col. Todd W. Lewis, USAR to be brigadier general (Reference 
No. 379)

    59.  In the Army there are 2 appointments to the grade of brigadier 
general (list begins with George N. Appenzeller) (Reference No. 380)

    60.  MG Steven R. Rudder, USMC to be lieutenant general and Deputy 
Commandant, Aviation, Headquarters, U.S. Marine Corps (Reference No. 
381)

    61.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (James E. Thompson) (Reference No. 382)

    62.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Pablo F. Diaz) (Reference No. 383)

    63.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Craig A. Nazareth) (Reference No. 384)

    64.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Brian C. McLean) (Reference No. 385)

    65.  In the Army there is 1 appointment to the grade of major 
(Raymond C. Casteline) (Reference No. 386)

    66.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Daniel J. Shank) (Reference No. 387)

    67.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Christopher W. Degn) (Reference No. 388)

    68.  In the Army there is 1 appointment to the grade of colonel 
(Jason T. Kidder) (Reference No. 389)

    69.  In the Army there is 1 appointment to the grade of colonel 
(Tito M. Villanueva) (Reference No. 390)

    70.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Philip J. Dacunto) (Reference No. 391)

    71.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Stephen R. November) (Reference No. 392)

    72.  In the Army there is 1 appointment to the grade of colonel 
(Luisa Santiago) (Reference No. 393)

    73.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Robert J. Bonner) (Reference No. 394)

    74.  In the Air Force there is 1 appointment to the grade of major 
(Johanna K. Ream) (Reference No. 411)

    75.  In the Air Force Reserve there are 118 appointments to the 
grade of colonel (list begins with Paul R. Aguirre) (Reference No. 412)

    76.  In the Army there is 1 appointment to the grade of major 
(Mohamad El Samad) (Reference No. 413)

    77.  In the Army there is 1 appointment to the grade of major (Lana 
J. Bernat) (Reference No. 414)

    78.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Patrick K. Sullivan) (Reference No. 415)

    79.  In the Army Reserve there are 207 appointments to the grade of 
colonel (list begins with Derek L. Adams) (Reference No. 416)

    80.  In the Army Reserve there are 230 appointments to the grade of 
colonel (list begins with Rodney Abrams) (Reference No. 417)

    81.  In the Army Reserve there are 58 appointments to the grade of 
colonel (list begins with Christine N. Adams) (Reference No. 418)

    82.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Aaron L. Witherspoon) (Reference No. 430)

    83.  In the Navy there is 1 appointment to the grade of captain 
(John E. Fritz) (Reference No. 437)

    84.  In the Marine Corps there is 1 appointment to the grade of 
major (Michael S. Stevens) (Reference No. 451)

    85.  In the Marine Corps there is 1 appointment to the grade of 
major (Patrick J. Mullen) (Reference No. 452)

    86.  In the Marine Corps Reserve there are 45 appointments to the 
grade of colonel (list begins with Raymond L. Adams) (Reference No. 
453)

    87.  MG Laura J. Richardson, USA to be lieutenant general and 
Deputy Commanding General/Chief of Staff, U.S. Army Forces Command 
(Reference No. 467)

    88.  BG Charles N. Pede, USA to be lieutenant general and Judge 
Advocate General of the Army (Reference No. 468)

    89.  RADM Phillip G. Sawyer, USN to be vice admiral and Commander, 
SEVENTH Fleet (Reference No. 469)

    90.  MG Brian D. Beaudreault, USMC to be lieutenant general and 
Deputy Commandant for Plans, Policies, and Operations, Headquarters, 
U.S. Marine Corps (Reference No. 473)
_______________________________________________________________________
                                                                    
TOTAL: 818

    Welcome to our old and dear friend, Director Coats, and 
Lieutenant General Stewart who continues to serve with 
distinction and with great honor. I thank you. Director Coats, 
given your advanced age, we begin with you.
    [Laughter.]

 STATEMENT OF HONORABLE DANIEL R. COATS, DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Coats. Thank you, Mr. Chairman. You and I have an 
ongoing race between who is the more aged and experienced. You 
win every time----
    [Laughter.]
    Mr. Coats.--which is quite an accomplishment.
    I am pleased to be before you, Chairman McCain and Ranking 
Member Reed, and members of the committee.
    I must admit when I walked through the door, instinctively 
I made a right turn trying to find my seat up on the panel, and 
said, oh, yeah, that is right. I get to come down here.
    Chairman McCain. You are welcome at any time to come and 
take a trip down memory lane, Mr. Coats.
    Mr. Coats. Thank you.
    Let me just reiterate what the chairman said relative to 
what happened in Manchester last evening. I just returned from 
London a couple of days ago and met with all of my intelligence 
community colleagues there. We spent a significant amount of 
time discussing threats to our respective homelands and it is a 
tragic situation that we see all too much of happening in 
countries around the world, particularly our allies. It, once 
again, reminds us that this threat is real. It is not going 
away and needs significant attention to do everything we can to 
protect our people from these kinds of attacks.
    I am here today with Lieutenant General Vince Stewart from 
the DIA [Defense Intelligence Agency] to discuss the IC's 
[Intelligence Community] assessment of the multitude of threats 
facing our country. Vince will give some brief opening comments 
as well, and I have tried to condense my opening remarks, 
knowing this is an unclassified session, so that we will have 
plenty of time for your questions.
    We are here to describe in an unclassified way the 
complexity of the threat environment which is ever expanding 
and has challenged the IC to stay ahead of the adversary. This 
has not been an easy task. We appreciate the support from this 
committee to address these threats in a way that will give the 
President, the Congress, and other policymakers the best and 
most integrated intelligence we can assemble.
    In the interest of time, I will discuss just some of the 
many challenges that we currently face. The IC's written 
statement that was submitted earlier discusses these and many 
other threats in much greater detail.
    Let me start with North Korea. North Korea is an 
increasingly grave national security threat to the United 
States because of its growing missile and nuclear capabilities, 
combined with the aggressive approach of its leader, Kim Jong-
un. Kim is attempting to prove that he has the capability to 
strike the United States mainland with a nuclear weapon. We 
assess that all flight tests this year, including the two this 
month, have demonstrated capabilities short of an ICBM 
[Intercontinental Ballistic Missile] at this point in time. 
However, North Korea updated its constitution in 2012 to 
declare itself a nuclear power, and its officials consistently 
state nuclear weapons as the basis for regime survival, 
suggesting Kim does not intend to negotiate them away.
    In Syria, we assess that the regime will maintain its 
momentum on the battlefield provided, as is likely, that it 
maintain support from Iran and Russia. A continuation of the 
Syrian conflict will worsen already dangerous conditions for 
Syrians in regional states.
    Furthermore, as you all know, on April 4th, the Syrian 
regime used the nerve agent sarin against the opposition in 
Khan Shaykhun in what was probably the largest chemical attack 
by the regime since August 2013. Since that sarin attack, we 
have observed more than five allegations of Syrian regime 
chlorine use. We assess that Syria is probably both willing and 
able to use chemical weapons in future attacks. We are still 
acquiring and continue to analyze all intelligence related to 
the question of whether Russian officials had foreknowledge of 
the Syrian chemical weapon attack on April 4th.
    Let me turn to cyber threats. Cyber threats continue to 
represent a critical national security issue for the United 
States for at least two key reasons.
    First, our adversaries are becoming more bold, more 
capable, and more adept at using cyberspace to threaten our 
interests and to shape real-world outcomes. The number of 
adversaries grows as nation states, terrorist groups, criminal 
organizations, and others continue to develop cyber 
capabilities.
    Second, the potential impact of these cyber threats is 
amplified by the ongoing integration of technology into our 
critical infrastructure and into our daily lives. We see this 
today in the form of the Wanna Cry ransomware attack, which 
victimized companies, services, and individuals in well over 
100 nations within days of its 12 May release. As this activity 
continues, the U.S. Government investigation is ongoing.
    The worldwide threat of terrorism is geographically diverse 
and multifaceted, and it poses a continuing challenge for the 
United States, for our allies and partners who seek to counter 
it. ISIS [Islamic State of Iraq and Syria] is experiencing 
territorial losses in Iraq and Syria. However, we assess ISIS 
will continue to be an active terrorist threat to the United 
States due to its proven ability to direct and inspire attacks 
against a wide range of targets around the world. I might 
mention that ISIS has claimed responsibility for the attack in 
Manchester, although they claim responsibility for virtually 
every attack. We have not verified yet the connection.
    Outside Iraq and Syria, ISIS is seeking to foster 
interconnectedness among its global branches and networks, 
align their efforts to its strategy, and withstand counter-ISIS 
efforts. We assess that ISIS maintains the intent and 
capability to direct, enable, assist, and inspire transnational 
attacks.
    Al Qaeda and its affiliates continue to pose a significant 
terrorist threat overseas as they remain primarily focused on 
local and regional conflicts.
    Homegrown violent extremists remain the most frequent and 
unpredictable terrorist threat to the United States homeland. 
This threat will persist with many attacks happening with 
little or no warning.
    I would like to take a quick run through some key areas of 
the Middle East. In Iraq, Baghdad's primary focus through 2017 
we assess will be recapturing and stabilizing Mosul and other 
territory controlled by ISIS. We assess that Iraq will still 
face serious challenges to its stability, political viability, 
and territorial integrity even as the threat from ISIS is 
reduced. Reconstruction will cost billions of dollars, and 
ethno-sectarian and political reconciliation will be an 
enduring challenge.
    In Iran, Tehran's public statements suggest that it wants 
to preserve the Joint Comprehensive Plan of Action because it 
views the deal as a means to remove sanctions while preserving 
some nuclear capabilities. We assess that the JCPOA [Joint 
Comprehensive Plan of Action] agreement has extended the amount 
of time Iran would need to produce enough fissile material for 
nuclear weapons from a few months to about a year.
    In the meantime, Tehran's malign activities continue. For 
example, Iran provides arms, financing, and training, and 
manages as many as 10,000 Iraqi, Afghan, and Pakistani Shiite 
fighters in Syria to support the Assad regime. Iran has sent 
hundreds of its own forces, to include members of the Islamic 
Revolutionary Guard Corps, the IRGC, and IRGC Quds Force to 
Syria as advisors.
    The reelection on May 19th of President Rouhani suggests 
the Iranian populace also broadly supports the JCPOA. Shortly 
before the election, Rouhani criticized the IRGC for attempting 
to sabotage the deal and called for Iran to restart interaction 
with the world and not be under, quote, the evil shadow of war.
    In Yemen, fighting will almost certainly persist in 2017 
between Houthi alliance forces trained by Iran and the Yemeni 
Government backed by a Saudi-led coalition. Neither side has 
been able to achieve decisive results through military force. 
Al Qaeda in the Arabian Peninsula, AQAP, and an ISIS branch in 
Yemen have exploited the conflict in Yemen and the collapse of 
government authority to gain new recruits and allies and expand 
their influence.
    The IC assesses that the political and security situation 
in Afghanistan will almost certainly deteriorate through 2018 
even with a modest increase in military assistance by the 
United States and its partners. This deterioration is 
underpinned by Afghanistan's dire economic situation. 
Afghanistan will struggle to curb its dependence on external 
support until it contains the insurgency or reaches a peace 
agreement with the Taliban.
    Meanwhile, we assess that the Taliban is likely to continue 
to make gains, especially in rural areas. Afghan Security 
Force's performance will probably worsen due to a combination 
of Taliban operations, combat casualties, desertions, poor 
logistic support, and weak leadership.
    Pakistan is concerned about international isolation and 
sees its position through the prism of India's rising 
international status, including India's expanded foreign 
outreach and deepening ties to the United States. Pakistan will 
likely turn to China to offset its isolation, empowering a 
relationship that will help Beijing to project influence in the 
Indian Ocean.
    In addition, Islamabad has failed to curb militants and 
terrorists in Pakistan. These groups will present a sustained 
threat to the United States interests in the region and 
continue to plan and conduct attacks in India and Afghanistan.
    Russia is likely to become a more assertive nation in 
global affairs, more unpredictable in its approach to the 
United States, and more authoritarian in its approach to 
domestic politics. We assess that Russia will continue to look 
to leverage its military support to the Assad regime to drive a 
political settlement process in Syria on Russia's terms. Moscow 
is also likely to use Russia's military intervention in Syria 
in conjunction with efforts to capitalize on fears of a growing 
ISIS and extremist threat and expand its role in the Middle 
East.
    We also have noticed and discussed in significant detail 
and may do so during this session Russia's influence campaign 
and strategies to undermine democratic institutions and 
interfere with elections. As I said, I just returned from 
Europe. Clearly in France in its election, now in Germany with 
its pending election, in England with its pending election, we 
are seeing duplications of what has happened here in our 
election. The Russian strategy continues.
    Let me talk a little bit about Ukraine and Russia. We 
assess that Moscow's strategic objectives in Ukraine, 
maintaining long-term influence over Kiev and frustrating 
Ukraine's attempts to integrate into Western institutions will 
remain unchanged in 2017. Russia continues to exert military 
and diplomatic pressure to coerce Ukraine into implementing 
Moscow's interpretation of the political provisions of the 
Minsk II agreement, among them constitutional amendments that 
would effectively give Moscow a veto over Kiev's strategic 
decisions.
    I will finish up here with China. China will continue to 
pursue an active foreign policy, especially within the Asia-
Pacific region, highlighted by a firm stance on competing 
territorial claims in the East China Sea and South China Sea, 
relations with Taiwan and its pursuit of economic engagement 
across East Asia. China, which views a strong military as a 
critical element in advancing its interests, will also pursue 
efforts aimed at fulfilling its ambitious One Belt, One Road 
initiative to expand China's strategic influence and economic 
role across Asia through infrastructure projects.
    In the interest of time and to get to your questions, I 
will defer assessments on western hemisphere issues, which I 
trust we will discuss during the question period.
    However, I would like to make one final point on a key 
authority for the IC going forward. As you are all well aware, 
section 702 of the FISA [Foreign Intelligence Surveillance Act] 
Amendments Act is due to expire at the end of the year. I 
cannot stress enough the importance of this authority in how 
the IC does its work to keep Americans safe. Section 702 is an 
extremely effective tool to protect our Nation from terrorists 
and other threats. As I described in my confirmation hearing, 
702 is instrumental to so much of the IC's critical work in 
protecting the American people from threats from abroad. We are 
committed to working with all of you to assure that you 
understand not only how we use this authority, but also how we 
protect privacy and civil liberties in the process.
    In conclusion, the intelligence community will continue its 
tireless work against these and all other threats, but we will 
never be omniscient. Although we have extensive insight into 
many threats in places around the world, we have gaps in 
others. Therefore, we very much appreciate the support provided 
by your committee and will continue to work with you to ensure 
that the intelligence community has the capabilities it needs 
to meet its many mission needs.
    I will now turn to General Stewart for a few brief remarks.
    [The prepared statement of Mr. Coats follows:]
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

   STATEMENT OF LIEUTENANT GENERAL VINCENT R. STEWART, USMC, 
             DIRECTOR, DEFENSE INTELLIGENCE AGENCY

    Lt. Gen. Stewart. Chairman McCain, Ranking Member Reed, 
members of the committee, thank you for this opportunity appear 
with DNI [Director of National Intelligence] Coats to provide 
an assessment of the threats to our national security.
    I concur with the Director's statement in its entirety. 
However, I would like to reinforce for this committee and, by 
extension, the American people your Defense Intelligence 
Agency's view on five military threats facing the Nation. We in 
DIA call these our no-fail missions because the risk is too 
high for us to fail in pursuing these missions. They include a 
nuclear-capable and increasingly provocative North Korea, a 
resurgent Russia, a modernizing China, an ambitious regional 
power in Iran, and violent extremist organizations, the last 
category encompassing ongoing operations in Afghanistan, Iraq, 
Syria, and elsewhere.
    The world is focused on events in Pyongyang and for good 
reasons. Since assuming power, Kim Jong-un has conducted three 
nuclear tests, and the regime has tested an unprecedented 
number of ballistic missiles of varying ranges over the past 
year. Although shortfalls remain, key milestones have been met 
in specific systems, and they continue to obtain valuable data 
and insights from each test. Let me be very clear on this 
point. If left on its current trajectory, the regime will 
ultimately succeed in fielding a nuclear armed missile capable 
of threatening the United States homeland. While nearly 
impossible to predict when this capability will be operational, 
the North Korean regime is committed and is on a pathway where 
this capability is inevitable.
    Russia views military power as critical to achieving its 
key strategic objective and devotes significant resources to 
its military modernization program. The Russian Government 
seeks to be the center of influence in what it describes as a 
multi-polar, post-West world order. To support this world view, 
Moscow pursues aggressive foreign and defense policies by 
employing a full spectrum of influence and coercion aimed at 
challenging U.S. interests around the globe. Out-of-area 
operations remain a priority, as demonstrated by its ongoing 
deployment to Syria and long-range aviation approaching United 
States airspace.
    China is in the third decade of an unprecedented military 
modernization program involving weapon systems, doctrine, 
tactics, training, space and cyber operations. It now stands 
firmly in the category as a near-peer U.S. competitor. New 
bases are being built in the South China Sea, and evidence 
suggests that these outposts will be used for military 
purposes. A key component of China's strategy for a regional 
contingency is planning for potential United States 
intervention in a conflict in the region. Its navy remains on a 
course for 350 ships by the year 2020, and anti-access/area 
denial capabilities continue to improve.
    Turning to Iran, despite sanctions, Tehran is putting 
considerable resources into conventional military priorities 
such as ballistic and cruise missiles, naval systems, unmanned 
aerial vehicles, air defense systems that could threaten the 
United States and our interests in the region. Iran's 
conventional military doctrine is designed to protect Iran from 
the consequences of its assertive regional policy spearheaded 
by the Iranian Revolutionary Guard's Quds Force and its 
regional proxy, Lebanese Hezbollah, and in concert with certain 
Iraqi Shiite militias and the Houthis. We should expect Iran to 
continue to undermine the current regional security 
architecture using terrorist organizations and proxies to 
complicate United States efforts throughout the region.
    Finally, we are making steady progress against trans-
regional terrorism but still have a long way to go. ISIS has 
been greatly diminished in Libya, will soon lose control of 
Mosul, and the capital in Raqqa is nearly isolated. We have 
killed many ISIS and Al Qaeda leaders and numerous terrorist 
plots have been averted. The trend lines are moving in the 
right direction, but this fight will not end soon. The enemy 
remains highly adaptable and capable, and instability and 
under-governed territory may give them opportunities to 
resurge. I am particularly concerned about the long-term impact 
of returning foreign fighters and the potential for these 
groups to capitalize on the proliferation of armed unmanned 
aerial vehicles to do harm to U.S. and our allied interests.
    Mr. Chairman, the men and women of your DIA are providing 
unique defense intelligence around the world and around the 
clock to warfighters, defense policymakers and planners, and 
the defense acquisition community. They are doing so on the 
battlefield at combatant commands, headquarters, here on the 
banks of the Potomac, and in the capitals of the world through 
our defense attache service. It has been a privilege to serve 
with them the last 2 and a half years and see firsthand their 
service and contribution to our country.
    I look forward to the committee's questions.
    [The prepared statement of General Stewart follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman McCain. Thank you very much.
    Director Coats, according to the ``Washington Post'' story 
this morning, President Trump asked two of the Nation's top 
intelligence officials in March to help him push back against 
an FBI [Federal Bureau of Investigation] investigation into 
possible coordination between his campaign and the Russian 
Government. According to current and former officials, Trump 
made separate appeals to the Director of National Intelligence, 
Daniel Coats, and to Admiral Michael S. Rogers, the Director of 
the NSA [National Security Agency], urging them to publicly 
deny the existence of any evidence of collusion during the 2016 
elections. Coats and Rogers refused to comply with the request, 
which they both deemed to be inappropriate.
    Is that an accurate reporting, Director Coats?
    Mr. Coats. Mr. Chairman, as the President's principal 
intelligence advisor, I am fortunate to be able and need to 
spend a significant amount of time with the President 
discussing national security interests and intelligence as it 
relates to those interests. We discuss a number of topics on a 
very regular basis. I have always believed that given the 
nature of my position and the information which we share, it is 
not appropriate for me to comment publicly on any of that. On 
this topic, as well as other topics, I do not feel it is 
appropriate to characterize discussions and conversations with 
the President.
    Chairman McCain. Is it not true that some of these leaks 
can be damaging to national security, Director Coats?
    Mr. Coats. Leaks have become a very significant--played a 
very significant negative role relative to our national 
security. The release of information not only undermines 
confidence in our allies but our ability to maintain secure 
information that we share with them. It jeopardizes sources and 
methods that are invaluable to our ability to find out what is 
going on and what those threats are. Lives are at stake in many 
instances, and leaks jeopardize those lives.
    Chairman McCain. Thank you.
    In light of the tragedy in Manchester last night, does it 
not lend significant urgency to retaking Raqqa where all this 
originates?
    Mr. Coats. Well, that will not solve the problem, 
particularly the homegrown and inspired attacks. Clearly going 
to the heart of ISIS and driving a stake through that heart we 
assess will significantly improve the situation, the plotting 
and the planning that comes from a centralized caliphate or 
safe haven for ISIS. We have seen the damage that has occurred. 
We do assess, however, that its ideology and methods have 
spread like tentacles into many places, most of them ungoverned 
countries, and sent some foreign fighters back home that might 
want to carry on their mission. Clearly the strategy I believe 
is the right strategy and that is to go to the heart and 
disperse their planning and their leadership.
    Chairman McCain. The Defense Science Board told this 
committee at least in the next decade, the offensive cyber 
capabilities of our most capable adversaries are likely to far 
exceed the United States' ability defend key critical 
infrastructure. Do you agree with that assessment?
    Mr. Coats. I do. I do. I think cyber has risen to the top, 
close to the top of one of the most serious challenges that we 
face. As I mentioned in my opening statement, we need to see 
this as a very significant challenge to our public safety, as 
well as the public health.
    Chairman McCain. 2 years in a row we have authorized the 
provision of defensive lethal weapons in the defense 
authorization bill to Ukraine. Do you believe that we should 
seriously consider that in light of continued Russian 
aggression in the country?
    Mr. Coats. Well, Mr. Chairman, that is a little bit outside 
my portfolio. It is a policy decision that perhaps General 
Stewart may want to discuss. We want to try to continue to 
provide the intelligence that would shape and fashion that 
decision among our policymakers, General Mattis and others.
    Chairman McCain. Finally, on the issue of cyber, right now 
we have no policy nor did we for the previous 8 years of the 
last administration. Therefore, without a policy, we do not 
have a strategy. So, therefore, when we do not have a strategy, 
we do not know how to act.
    Is that a true depiction of the scenario as we see it as 
far as cyber is concerned?
    Mr. Coats. Well, I think we are learning that we do need to 
take this seriously, which we do. We do need to fashion a means 
by which we address these cyber attacks that are growing by the 
day. Our critical infrastructure is at risk. Our personal lives 
are at risk. Our financial community, commercial communities, 
military, and other entities that are important to our national 
security are at risk, and shaping a policy and a plan to 
address this I think rises to a top priority.
    Chairman McCain. I want to thank you and General Stewart 
for your outstanding work for our country.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you both, gentlemen.
    Director Coats, apparently the alleged call was prompted by 
the testimony of Mr. Comey that the FBI was conducting an 
investigation into the nature of any links between individuals 
associated with the Trump campaign and the Russian Government 
and whether there was any coordination between the campaign and 
Russia's efforts. In your capacity as Director of all the 
intelligence services, including many aspects of the FBI, are 
you aware of such an investigation?
    Mr. Coats. Well, I am aware of the investigations that are 
underway both by the House and the Senate, now special counsel.
    Senator Reed. The FBI.
    Mr. Coats. The FBI, yes.
    Senator Reed. Do you have any reason to question the 
appropriateness of the investigations?
    Mr. Coats. No. I think these investigations are in place to 
get us to the right conclusion so that we can move on with a 
known result.
    Senator Reed. There are other allegations in the article 
which suggests that either the President or White House 
personnel contacted other people in the intelligence community 
with requests to drop the investigation into General Flynn. Are 
you aware of any other contacts, not just yourself personally 
but to others in the intelligence community to conduct such 
activity?
    Mr. Coats. I am not aware of that.
    Senator Reed. You have and General Stewart have painted a 
very challenging picture of the threats that face us. Let me 
raise two specific issues.
    One, with respect to Iraq, there have been discussions in 
the Kurdish community of a referendum to declare essentially 
their independence or their desire for independence. In your 
estimation, Director Coats, then General Stewart, what would 
that do to the ability of the Iraqi Government to come together 
after the defeat of ISIS?
    Mr. Coats. Well, it certainly adds an issue that is going 
to need to be worked through. As complicated as the situation 
is, it would add one more complication. I would turn to General 
Stewart relative to the military aspects of that.
    Lt. Gen. Stewart. Once ISIS is defeated in Mosul, the 
greatest challenge to the Iraqi Government is to reconcile the 
differences between the Shiite-dominated government, the Sunnis 
out west, and the Kurds to the north. Resolving the Kirkuk 
oilfield, the revenues associated with the oilfields, resolving 
the ownership of the city of Kirkuk will be significant 
political challenges for the Iraqi Government. Failure to 
address those challenges, coming up with a political solution, 
will ultimately result in conflict among all of the parties to 
resolve this and going back to what could devolve into civil 
strife in Iraq. Those are significant challenges. Kurdish 
independence is on a trajectory where it is probably not if but 
when, and it will complicate the situation unless there is an 
agreement in Baghdad, an agreement that all of the parties can 
live with. This is a significant referendum that comes up in 
October this year.
    Senator Reed. Director Coats, just for a moment going back, 
I understand that you feel that you cannot comment on any 
communications between you and the President. Just 
hypothetically if a President reached out to the Director of 
National Intelligence and made such a request, would you think 
that would be appropriate?
    Mr. Coats. Mr. Vice Chairman, I made it clear in my
    confirmation hearing before the Senate Select Committee on 
Intelligence that my role and the role of the Director of 
National Intelligence is to provide intelligence information 
relevant to policymakers so that they can base their judgments 
on that. Any political shaping of that presentation or 
intelligence would not be appropriate. I have made my position 
clear on that to this administration, and I intend to maintain 
that position.
    Senator Reed. Thank you, Mr. Director.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Director Coats, in your opening statement, 
you just made a couple of brief comments about what happened in 
Manchester last night, and then you responded to a couple 
questions. Is there anything that you would like to elaborate 
on that incident last night, particularly when we have witness 
after witness coming in here talking about the threat which you 
have talked about to this country? It is only a matter of time. 
Anything else that you would like to add in terms of last 
night's attack?
    Mr. Coats. Well, in my discussions with my counterparts in 
London, MI5, MI6, the various intelligence agencies, and my 
counterpart to my position, their greatest concern was the 
inspired or homegrown violent extremist attacks because they 
are very hard to assess and detect. Initial reports that we 
have received are that it was, indeed, a suicide attack. 
Whether there were others implicated in that is under 
assessment.
    My counterpart actually will be boarding a plane to come to 
the United States to testify before--I am not sure which 
committee it is--and I am sure he will have some information on 
that. I have a call in to him to try to see what the latest 
information is----
    Senator Inhofe. You have had conversations since this 
happened this morning?
    Mr. Coats. Pardon?
    Senator Inhofe. You have had conversations with these 
counterparts since this happened?
    Mr. Coats. My colleagues in the IC have been talking. My 
direct discussion with my counterpart--he was actually briefing 
the Prime Minister at the time. We have call teed up as soon as 
this hearing is finished.
    Senator Inhofe. Okay.
    On North Korea, we all know the significance of May 14th, 
the capability that is there, the anticipation that they are 
going to have the capability to do something with the payload 
that they can survive the exit and reentry strategy. That is of 
great concern, but it already was a concern to us.
    Now, I understand and I have heard from different witnesses 
that intelligence gathering in North Korea is more difficult 
than it is in other parts of the world. You cannot use 
whistleblowers and some other things. Could you talk about the 
difficulty that is unique to North Korea in gathering 
information?
    Mr. Coats. It is one of the hardest, if not the hardest, 
collection nation that we have to collect against. You know, if 
you look at that satellite picture of the lights at night from 
the satellite, there is one dark area with no lights on, and 
that is North Korea. Their broadband is extremely limited. 
Using that as an access to collection--we get very limited 
results. We do not have consistent ISR [Intelligence, 
Surveillance, and Reconnaissance] capabilities. There are gaps. 
The North Koreans know about these. It becomes a difficult 
challenge relative to a society as closed and as isolated as 
North Korea is to get the right intelligence that we need.
    Senator Inhofe. Well, I know it is a problem. That has to 
make us question the accuracy of the product a little bit more 
than we would some of the other countries that we are involved 
in in intelligence.
    Mr. Coats. Clearly.
    Senator Inhofe. The last hearing that we had, we talked 
quite a bit in some detail about the fact that we know in North 
Korea the big problem is that it is unpredictable. It is 
managed by someone who may be mentally deranged, and so we have 
things that are true there that are not elsewhere when we talk 
about the danger that is there.
    They did also say in the last hearing that we had last 
week--they talked about maybe one of the opportunities we have 
is a new awakening in China, that China now may no longer be as 
close to them as they had been in the past. Do you see an 
opportunity? I noticed when you went over and did an excellent 
job the seven different areas of problems, the last one was 
China. You did not say anything about maybe a change that will 
enable us to make a little bit more progress in North Korea.
    Mr. Coats. Well, as you know, the President had a very 
positive meeting with Prime Minister Xi. Our Secretary of State 
and others have been working very closely with the Chinese. We 
see them as playing a very integral role in dealing with the 
situation in North Korea, and there is a strategy in place 
relative to sort of a ratcheting up of efforts with China to 
influence North Korea to cease and desist their nuclear weapons 
goals. That, along with the election in South Korea with its 
new president, is part of our strategy to leverage efforts 
against North Korea to get them to reassess their current 
strategy.
    Senator Inhofe. Thank you, Director Coats.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here this morning.
    Director Coats, you talked about Russia's influence 
campaign and its effort to undermine Western elections as we 
saw here in 2016, we saw in France, we are seeing in Germany. 
We have failed to hold Russia accountable for that interference 
which, would you agree, sends a message to other countries that 
would threaten our cybersecurity here at home that we have 
failed to hold Russia accountable?
    Mr. Coats. Well, I think we are looking at every 
opportunity to hold Russia accountable. I think it is still in 
process in determining what kind of actions that we should 
take. There clearly is a consensus that Russia has meddled in 
our election process, as it is in Germany. I was in France just 
after the election of Macron, and that clearly had Russian 
influence attempting to address that election. I was in Berlin. 
Germany is facing the same thing. The UK [United Kingdom] is 
experiencing the same thing with an election coming up. We see 
this happening all across Europe. Russia has always been doing 
these kind of things with influence campaigns, but they are 
doing it much more sophisticated through the use of cyber and 
other techniques.
    Senator Shaheen. They have not actually tried to influence 
the outcome of our elections in the past in the same way that 
they did in 2016, as we heard from our intelligence community.
    Do you think it would be helpful for Congress to increase 
sanctions on Russia that would be a response to what they did 
in our elections? There is a bipartisan bill in Congress that 
has been introduced that would have a significant impact on 
Russia.
    Mr. Coats. Well, I would leave that to my former 
colleagues. I have had to remove my policy hat, which has not 
been easy after a career in politics, and put on my 
intelligence hat. My job now is to provide you with the 
intelligence to make those decisions. I keep having to correct 
myself and say, whoops, I am not supposed to go there. That is 
up to our executive and congressional branch to make the policy 
that they feel is necessary to address the problem.
    Senator Shaheen. Well, I certainly hope that the 
administration will come out with a proposal that will hold 
Russia accountable at some point in the near term.
    Let me ask you, though, about pointing to the events of 
last night in Manchester, that horrible tragedy, and the threat 
posed by transnational terrorism. Both of you have talked about 
that. I think that points to the need for robust intelligence 
sharing. What kind of message does it send to our allies that 
we have revelations that classified information was disclosed 
in a meeting with Minister Lavrov? Just let me point out this 
is an issue that has been raised with me recently by a high-
ranking official of one of our closest allies, about whether 
their country could count on information that was shared with 
us with being kept secret.
    Mr. Coats. Well, one of the purposes of my trip was to 
ensure that we maintain that kind of relationship that you are 
talking about. It is essential, given the threats that we face 
today, that we are all in dealing with this issue. There is no 
safe haven anymore among our allies in terms of being a target 
for an attack, and the better that we can share information, 
the better that we can maintain our relationships and trust 
those relationships, the better able we are to prevent these 
kinds of attacks.
    I would say two things. One, we have had some significant 
successes in providing information back and forth relative to 
preventing attacks. Secondly, to a country, the consensus is 
the most difficult attack to prevent is that which is inspired 
by an individual----
    Senator Shaheen. Sure. I think the members of this 
committee----
    Mr. Coats.--by someone who just has a hatred and wants to 
do damage.
    Senator Shaheen. I do not want to interrupt, Director 
Coats, but I think all of us on this committee understand that. 
I am about out of time, and I do want to ask you have you 
reassured our own men and women in the intelligence community 
that their work to protect this country and the relationships 
will be safeguarded?
    Mr. Coats. Oh, absolutely. My initial message to all of the 
intelligence community is do your job, provide us the best 
intelligence of any entity in the world, keep your focus on 
what we are here to do. I am confident that that is what is 
happening. I know General Stewart wanted just to make a 
comment.
    Lt. Gen. Stewart. We remain focused on our missions. 
Nothing has changed. Our relationships with our partners have 
grown over the last year. I have seen no indication that our 
partners are walking away from us in collaborating and sharing 
insights on the threats that we face around the world. None.
    Senator Shaheen. Thank you.
    Chairman McCain. They are very worried, General.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    I want to thank both of you gentlemen for being here today 
and for your service to this country.
    General Votel and General Nicholson have both testified 
about Russia's assistance to the Taliban, and recent news 
reports have suggested that it is increasing, to include 
weapons, logistical and financial support, and even medical 
treatment to Taliban fighters. What do each of you assess 
Russia's goal to be in Afghanistan? General, if you could also 
discuss the impact that this assistance has had on the 
battlefield.
    Lt. Gen. Stewart. Russia continues to view itself, as I 
mentioned earlier, as a global power. It is going to be 
influencing actions around the world. Its narrative is that 
primarily ISIS in the Khorasan Province is a threat to the 
Central Asian states and ultimately a threat to Russia. That is 
their argument. It is a pretty weak argument, and they use that 
argument as the avenue to get the Taliban forces to fight ISIS 
Khorasan Province. They are in conversation with the Taliban. 
We have seen indications that they have offered some level of 
support, but I have not seen real physical evidence of weapons 
or money being transferred. They have had conversation because 
they want to be part of the solution, quote/unquote, in the 
Afghan theater. They are going to continue to meddle. They are 
going to continue to bet on all of the horses, including 
Taliban, so that they will have a say at the seat when there is 
a political solution.
    Senator Fischer. Director?
    Mr. Coats. Well, I am privileged to be able to serve with 
General Stewart. One of the great things about this job that I 
inherited is that I inherited a group of people that are 
experienced in the areas that they direct. They have been 
enormously supportive and helpful.
    I think it points out the fact that the IRTPA [Intelligence 
Reform and Terrorism Prevention Act], which was passed in about 
2005 I believe it was and enacted in 2006, has really benefited 
in terms of our ability to reach out to all of the 16 agencies 
to collect the information necessary to integrate that into a 
coherent and effective intelligence assessment.
    Senator Fischer. Would you agree with the General's 
assessment of Russia's involvement then?
    Mr. Coats. I agree with that. Yes, I do.
    Senator Fischer. Thank you.
    Both of you in your opening statements, you note that 
increasing investments are being made by other nations with 
regard to their nuclear forces, especially Russia and China. 
Director and General, how does that discussion of the escalate 
to deescalate approach to nuclear weapons effect a change in 
the Russian thinking or planning with respect to the use of 
nuclear weapons?
    Lt. Gen. Stewart. Russia builds nuclear capability with the 
intent of using it on the high end of conflict for war 
termination or escalate to deescalate or some people call it 
escalate to terminate idea that if the crisis is going in a 
decidedly negative way for Russia, that the tactical use of 
nuclear weapons will discourage further actions by NATO [North 
Atlantic Treaty Organization] or United States Forces. The idea 
is tactical use of nuclear weapons causes us to pause, causes 
us to think about whether we want to continue the fight and 
create the opportunity where they can settle the contest in 
more favorable terms.
    They are the only country that I know of that has this 
concept of escalate to terminate or escalate to deescalate, but 
they do have that built into their operational concept. We have 
seen them exercise that idea, and it is really kind of a 
dangerous idea because it could escalate to further escalate.
    Senator Fischer. Have you seen any indication that they are 
changing their path on that at all?
    Lt. Gen. Stewart. None. No, Senator.
    Senator Fischer. With regard to China and their 
modernization efforts, do you see any of their views with 
nuclear weapons--do you see any of their views changing?
    Lt. Gen. Stewart. Certainly nuclear weapons and 
modernization of their nuclear force is an integral part. All 
of these countries view nuclear weapons as the guarantor of 
their regime. It is much like North Korea. China continues to 
modernize all levels, including nuclear forces, including 
capability to deter United States Forces from entering the west 
Pacific. They do not talk about a first use, but they do talk 
about use of nuclear weapons as part of warfighting.
    Mr. Coats. I might add to that despite the heroic and 
really incredible efforts by former Senators Nunn and Lugar 
toward minimizing and reducing the use of nuclear weapons, the 
success we had in Libya, the success we had in Ukraine-- 
unfortunately, the lessons learned have been if you have 
nuclear weapons, never give them up because it is a deterrent 
from other actors who may want to interfere in your country. If 
you do not have them, get them. We see what has happened in 
Ukraine. It probably would not have happened if they had 
maintained nuclear weapon capability. We see what is happening 
in North Korea who believes that regime survival is dependent 
solely on becoming a nuclear power. We, unfortunately, tend to 
be moving in the wrong direction as countries around the world 
think that gaining nuclear capability is a protection, either a 
deterrent or for survival of their country or potentially it 
could be used for offensive capabilities.
    Senator Fischer. If I could follow up with you later, Mr. 
Director, I would appreciate it. Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Director Coats, if a memo exists documenting you or Admiral 
Rogers' conversations with the President regarding the Russian 
investigation, will you make those documents available to 
Special Counsel Robert Mueller and the congressional 
Intelligence Committees?
    Mr. Coats. I have no documents to make relevant.
    Senator Gillibrand. In an opinion piece in the ``New York 
Times'' last week, it called Israel the eyes and ears of the 
United States in the Middle East when it comes to intelligence. 
Would you agree with that assessment?
    Mr. Coats. Israel is a very valued partner in terms of 
supporting us in any number of ways, including intelligence 
sharing.
    Senator Gillibrand. The piece also suggests that President 
Trump's alleged unsanctioned sharing of highly sensitive 
information that we received from Israel could do permanent 
damage to the special intelligence relationship. Without 
speaking to what President Trump may have revealed to Foreign 
Minister Lavrov and Ambassador Kislyak, could the unsanctioned 
sharing of highly classified information from Israel or other 
countries with whom we have intelligence partnerships harm 
those relationships and therefore our ability to gather 
intelligence and protect Americans?
    Mr. Coats. I have not seen any evidence of that or any 
reporting relative to anything that would lead to that 
conclusion.
    Senator Gillibrand. With regard to the documents, whether 
they exist or not, if you get called in front of the 
Intelligence Committee, will you share your conversations with 
President Trump in that hearing in that setting?
    Mr. Coats. Well, as I mentioned to Senator McCain in answer 
to his question, I do believe that the information and 
discussions that I have had with the President are something 
that should not be disclosed. On the other hand, if I am called 
before an investigative committee, I certainly will provide 
with them what I know and what I do not know.
    Senator Gillibrand. Reports indicate that Moscow is a 
lifeline to Pyongyang in a way that might undermine 
international pressure to convince North Koreans to give up 
their nuclear programs. Please describe what you can tell us in 
an open setting about the extent of Russia's ties to North 
Korea.
    Mr. Coats. I am sorry. Would you repeat that last 
statement?
    Senator Gillibrand. Can you describe to us in this open 
setting the extent of Russia's ties to North Korea?
    Mr. Coats. That is something I think I would rather reserve 
for a classified session.
    Senator Gillibrand. Researchers at Kaspersky Labs 
reportedly found evidence linking the recent global ransomware 
attack to North Korea cyber operatives. The North Korean threat 
is clear and present. So too is the cyber threat that the 
country poses to us and our allies.
    How do you think about the most recent attack, if it was by 
the North Koreans, fits into your plans?
    Mr. Coats. Well, I am sorry. Would you state that question 
again?
    Senator Gillibrand. How do you think this most recent 
attack, if it was by the North Koreans, fits into their plans?
    Mr. Coats. Well, we do not have evidence yet to confirm 
that. There has been that link. We do know North Korea 
possesses the capability of doing this kind of thing, but we 
are still assessing as to what the source is.
    Senator Gillibrand. Do you feel we are prepared to meet 
further cyber challenges from North Korea and other actors?
    Mr. Coats. I think we need a constant evaluation and 
engagement in terms of how we deal with cyber and the threats 
that it poses to us. The question was asked earlier and I 
agree. This has risen to a significant, if not the most 
significant, threat to the United States at this current time, 
and our policymakers need to be fully engaged I believe in how 
we deal with these both from a defensive and offensive way of 
addressing this particular issue. I have been outspoken 
relative to the need to do this, and we will continue to 
provide as much intelligence as we can to support that view.
    Senator Gillibrand. Do you believe that our voting 
infrastructure is critical infrastructure, and do you believe 
we should have a national security plan so that each of the 
States have to be certified for cyber compliance and cyber 
resiliency?
    Mr. Coats. I think those are two very relevant issues that 
ought to be thought through and policy ought to be devised and 
defined in terms of how we best address that. On the critical 
infrastructure side, we are so interconnected now that it poses 
a major threat to the United States and our individual States 
also.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, first of all, thank you for your service to our 
country.
    Director Coats, you began a conversation in response to 
Senator Fischer's question with regard to nuclear weapons, and 
you made an interesting statement that what we are learning is 
that if you have nuclear weapons, you keep them, and if you do 
not have nuclear weapons, you get them. For a lot of years now, 
many of our allies have depended upon arrangements or 
agreements with the United States in which we are carrying 
nuclear weapons and that we, in many cases, are responsible for 
carrying that nuclear deterrent so they do not have to, which 
keeps nuclear weapons out of other countries' hands, but it 
also requires a responsibility for us.
    You have suggested something here which is critical, and 
that is that those countries out there are learning a different 
understanding of the world that perhaps is not consistent with 
our message to them. Could you elaborate on this in terms of 
your analysis of the information, and why is it you believe 
right now that that is their belief, that if they have them, 
they keep them, and if they do not have them, they need to get 
them?
    Mr. Coats. Well, it is just an assessment of mine. It is 
almost a personal--I was not quoting an intelligence community 
report. I was simply saying it appears that based on what has 
happened in past years here relative to the nuclear capability 
question, that----
    Senator Rounds. Is it due, sir, to a policy that was not 
followed up on?
    Mr. Coats. No.
    Senator Rounds. Was it something that we failed to follow 
up on to reassure our allies?
    Mr. Coats. Well, I think that is a relevant question that 
you ask, and I do not know that I have the answer. I do know--I 
do not know, but I believe and have heard that some of the 
narrative out there relative to the situation in Ukraine has 
led some thinking along the regard of--and then watching what 
is happening in North Korea and how they have basically linked 
nuclear weapon possession and capability even by amending their 
constitution to declare themselves a nuclear state.
    Senator Rounds. Would it be fair to say that for those who 
are our allies, that it would be appropriate for us to 
reinforce our policy provisions in defense of their own 
security where we have made that commitment? Would that be 
appropriate?
    Mr. Coats. I think it would be appropriate. I think we want 
to reassure our policy allies that we have the capabilities to 
provide that. At the same time, we are basically saying, you 
know, we have to up our game, whether it is conventional or 
whatever, because these threats are real and having the 
capability to address these.
    I would like to turn to General Stewart to let him follow 
up.
    Lt. Gen. Stewart. If I can offer this. I think our allies 
are very comfortable with the arrangements, the protection that 
comes from our nuclear umbrella. It is the rogue states. It is 
not just about nuclear capability. Rogue states are looking for 
anything that will guarantee their survival, their hold on 
power. One of those things that they believe guarantees their 
hold on power is to have a nuclear device that can threaten 
either its neighbors or the United States.
    Senator Rounds. General, you would not consider Ukraine a 
rogue state, would you?
    Lt. Gen. Stewart. No.
    Senator Rounds. Yet, they must have that thought process 
there, and I would consider them to be an ally of ours.
    Lt. Gen. Stewart. I do not know if they fall in the ally 
category, to be honest. I know they are a strong partner. I do 
not know that we have an alliance with Ukraine, but I suspect 
that the Ukrainian Government probably views that the fact that 
they gave up much of their capability as part of the 
disarmament put them at greater risk and greater pressure from 
the Russian Government. I would imagine that right now they 
probably wish they had some lethal--to go back to Senator 
McCain's question, some lethal capability that could hold at 
risk Russian interference in their government and in their way 
of life.
    Senator Rounds. Among our allies, you are suggesting that 
they have a strong belief that we would respond, if necessary, 
and you do not see our allies who do not currently have nuclear 
weapons as feeling that our policies are clear and that our 
resolve is clear as well?
    Lt. Gen. Stewart. That is a fair statement, Senator.
    Mr. Coats. I agree with that assessment. I was not 
attempting to suggest otherwise, but rogue states or marginal 
states I think are thinking on a different level than that, not 
our allies.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Director Coats, you have refused today to 
confirm or deny whether the President asked you to intervene 
with Director Comey. If you are asked for those details by 
Special Counsel Bob Mueller, will you be forthcoming?
    Mr. Coats. Yes, I will.
    Senator Heinrich. You said earlier lives are at stake and 
leaks jeopardize those lives. If the President held any other 
position in our government, what he told the Russians could be 
considered the mother of all leaks. Was it dangerous for the 
President to share that classified information with the Russian 
Government?
    Mr. Coats. Well, I was not in the room and I do not know 
what the President shared. All I have read is the public----
    Senator Heinrich. You have not discussed this? All you have 
read is the public reports?
    Mr. Coats. I have not expressed that. First of all, I have 
been on travel, and secondly----
    Senator Heinrich. You have been on travel.
    Mr. Coats. I have not discussed this issue with the 
President.
    Senator Heinrich. I find that troubling.
    Mr. Coats. Well, I was in Europe, and he was in the White 
House.
    Senator Heinrich. Can you describe the interagency process 
that the intelligence community undertakes when deciding what 
intelligence information can be shared with a foreign 
government?
    Mr. Coats. Well, we work through a process. I cannot 
specifically describe that process here today. I am new to the 
job, weeks in. There are procedures and processes in place. I 
will be happy to get those back to you.
    Senator Heinrich. Did the Trump administration undergo that 
interagency clearance process prior to the President's May 10th 
meeting with the Russian Government?
    Mr. Coats. I have no awareness of that.
    Senator Heinrich. Sir, if they did, you are not aware of 
it.
    Mr. Coats. I am not aware of it, no.
    Senator Heinrich. That is disappointing, but shifting 
gears, I have got another question I want to get to the bottom 
of having to do with whether or not the Office of the Director 
of National Intelligence has received any guidance from the 
Trump administration, either written or verbally, that the ODNI 
[Office of the Director of National Intelligence] or any other 
agency, for that matter, is not to respond to oversight 
inquiries from Members of Congress.
    Mr. Coats. I am not aware of any information to that 
extent.
    Senator Heinrich. No information to say that they will only 
respond to chairs and ranking members?
    Mr. Coats. To my knowledge, no.
    Senator Heinrich. Thank you.
    Mr. Chair, I am going to yield back.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, gentlemen, for being here today.
    Director Coats, we do expect an announcement on the 
President's new strategy in Afghanistan shortly. What I hope we 
do not hear is an accelerated plan of what we have already been 
doing in Afghanistan. I do hope that we see some new ideas. 
Hopefully the plan that we see is one that will take into 
account a broader strategic problem. Something that we all 
understand and know is that we cannot address terrorist groups 
in Afghanistan on the ground without addressing their safe 
havens in Pakistan.
    My question to you is what steps do we need to see 
Afghanistan's neighbors take to help stabilize that region, and 
how do we make sure that they are following through?
    Mr. Coats. Well, once again, we provide the intelligence 
relative to the policymaking, but to directly answer your 
question, I think certainly an evaluation of how we work with 
Pakistan to address the situation of the harboring of terrorist 
groups would be essential to a strategy that affects 
Afghanistan going forward in Afghanistan because that is 
potentially a very disrupting situation, putting our own troops 
at risk and undermining the strategy of dealing with the 
Taliban and local groups that are trying to undermine the 
government. It is a very clear link that I think would have to 
be addressed in conjunction with whatever is done in 
Afghanistan.
    Senator Ernst. Thank you.
    General Stewart, I had the pleasure of flying into 
Afghanistan with you last year at Thanksgiving time. It was 
very good to catch up with you.
    Besides more troops, which I anticipate might be part of 
the plan that we see, do we need to implement a different 
strategy on the ground in Afghanistan?
    Lt. Gen. Stewart. Thanks, Senator. Again, I hate to talk 
about either policy or strategy, not just intel. Let me frame 
the response this way.
    Pakistan views Afghanistan--desires for Afghanistan some of 
the same things we want, a safe, secure, stable Afghanistan. 
One addition: one that does not have heavy Indian influence in 
Afghanistan. They view all of the challenges through the lens 
of an Indian threat to the state of Pakistan. They hold in 
reserve a terrorist organization. We define terrorist 
organizations. They hold them in reserve so that if Afghanistan 
leans towards India, they will no longer be supportive of an 
idea of a stable and secure Afghanistan that could undermine 
Pakistan interests.
    We have got to get a couple of things. One, very clear that 
Afghanistan's security and stability is in the interest of all 
of the parties in the region and does not pose a threat to 
Pakistan.
    We got to convince Pakistan that if they are harboring of 
the Haqqani Network members that it is not in their interest to 
continue to host the Haqqani Network, that we ought to be 
working together to go after those 20 terrorist organizations 
that undermine not just Afghanistan, not just Pakistan, but all 
of the region. We have got to make sure we are pushing them to 
do more against the Haqqani Network.
    They separate the Taliban from the Pashtun. They want a 
Pashtun-dominated Afghanistan.
    We got to get the conversation going again with Pakistan 
about their role in not harboring any of these terrorists, 
helping to stabilize Afghanistan, and I think maybe we will 
have some progress. They also have some influence in bringing 
the parties to the table. We got to get them to think about 
reconciliation, that the status quo is not in their best 
interests.
    Senator Ernst. Do you think that we can frame the 
intelligence in a way that would state that we need Pakistan to 
be a good friend to not only Afghanistan and the United States 
in order for the United States to be a good friend to Pakistan?
    Lt. Gen. Stewart. I am hoping to do just that in the weeks 
ahead, ma'am.
    Senator Ernst. Okay. Thank you.
    I will yield back my time. Thank you, Mr. Chair.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank both the witnesses for being here. We are 
greatly appreciative of your hard work. Director, everyone back 
home in Indiana is very, very proud of you, and we feel more 
safe in our country having you in that position.
    In February, North Korea tested a solid fuel missile which 
we were told caught the United States by surprise. My 
understanding from STRATCOM [Strategic Command] is that the 
type of fuel, the launcher erector, and even the location of 
the tests were not anticipated. Just over a week ago, North 
Korea tested a missile they say is capable of carrying a 
nuclear warhead.
    One at a time. Are either of you able to confirm whether 
the recent missile tested is in fact capable of carrying a 
nuclear warhead?
    Lt. Gen. Stewart. I would prefer not to talk about that in 
this setting, Senator.
    Mr. Coats. I was just about to say that, the same thing.
    Senator Donnelly. General Stewart, can you speak to what 
technological hurdles North Korea would need to overcome in 
order to successfully mate a nuclear warhead to an ICBM capable 
of reaching the U.S. and surviving reentry?
    Lt. Gen. Stewart. The technical hurdle remains in the 
survival of the reentry platform. They have certainly 
demonstrated a range of missiles, a range of fuel types, a 
range of boosters. They have the Taepodong 2 that launched a 
space launch vehicle. That, if modified, could have 
intercontinental range. The single hurdle that we have not seen 
all the pieces put together is the reentry vehicle surviving 
the atmosphere. That is really a matter of enough trial and 
error to make that work. They understand the physics, but it is 
just a matter of design.
    Senator Donnelly. I was just going to talk to you about the 
trial and error. You hear sometimes folks almost smile that 
they have had a failure or something in their testing. To me--
and I want to check with you--the way you learn is by trying 
and by doing. The fact that it is a failure is not so much a 
failure for North Korea. They are learning all the time and it 
is becoming of increasing concern. Would you agree with that?
    Lt. Gen. Stewart. They not only are learning with every 
test, but they are not encumbered by some of the challenges we 
have in our safety and acquisition program. They will take 
greater risk. The timeline where we would see things and we 
would say, based on our model, it will take 7 years, they are 
accelerating that timeline because they are not encumbered by 
some of the bureaucratic burdens that we have in our weapons 
acquisition program.
    Senator Donnelly. Understanding that North Korea may not 
currently be able to deliver a nuclear weapon to the 
continental United States, can you speak to their capability to 
use a nuclear weapon against South Korea where we have 30,000 
troops stationed or Japan where we have 50,000 troops 
stationed?
    Lt. Gen. Stewart. I would not want to answer that in this 
hearing, Senator.
    Senator Donnelly. Thank you.
    Let me ask you about something else, and that would be the 
Chinese and their efforts to try to affect the decision-making 
by Kim Jong-un. Have you seen any indication that they have 
become more serious in this effort, that they are taking the 
kind of steps necessary to alter Kim Jong-un's decision-making 
process? Have you seen that they are aware of the sufficient, 
grave situation we have here? Then as a follow-up on that, what 
do you think are the kind of steps that China could take that 
might actually get Kim Jong-un's attention?
    Mr. Coats. We certainly have been able to get their 
attention, and they have taken some steps. At this point, it 
has not produced the results that we had hoped. Secretary 
Tillis defines this as a series of steps relative to increasing 
pressure on North Korea and that we are just at the early 
stages of that. Clearly China's engagement in helping us 
address this issue is critical, deemed that way, and we 
continue to work with the Chinese in that regard. Beyond that I 
would think the opportunity to address that to Secretary 
Tillis--Tillerson--I mentioned one of my colleagues.
    Senator Donnelly. I knew who you meant.
    Mr. Coats.--Tillerson to get a better detail of what we are 
trying to do. Clearly China needs to play a role.
    It has been suggested that--speaking of Senator Tillis, he 
just walked in. I equated you with the Secretary of State. You 
are smiling. I am not sure you want that job.
    It has been publicly stated that China has rejected some 
coal imports from North Korea to somewhat significant efforts. 
There is a question about oil that is provided and other 
economic issues. It really falls outside of my category and 
more into the Secretary of State's category.
    Senator Donnelly. Understood.
    Thank you both.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you both for very compelling 
testimony.
    When it comes to Russia, former Director of the CIA 
[Central Intelligence Agency] Brennan said today that Russia 
brazenly interfered in our 2016 election. Do both of you agree 
with that?
    Mr. Coats. I agree. We have high confidence from all of our 
sources that there was a significant involvement.
    Senator Graham. You agree with that, General?
    Lt. Gen. Stewart. Yes, Senator.
    Senator Graham. Iran. The President said this morning, I 
think, in Israel that Iran will not be allowed to get a nuclear 
weapon. Director Coats, do you believe that the current 
agreement with Iran regarding their nuclear program will 
accomplish this goal?
    Mr. Coats. No. I think it was made clear that it would not 
accomplish this goal. It would only accomplish a deferment 
relative to their having a free hand at developing nuclear 
capability.
    Senator Graham. Do you agree with that, General?
    Lt. Gen. Stewart. It defers the effort, and I do not see 
any indication that Iran is pursuing breaking out of that deal 
at this point.
    Senator Graham. The question is, does it accomplish the 
goal of denying them nuclear capability?
    Lt. Gen. Stewart. Ultimately it does not deny forever. It 
defers for 10 years, if I understand the agreement.
    Senator Graham. Iran, do you agree, is more aggressive 
since the agreement in terms of activity within the region?
    Mr. Coats. We have seen a lot of malign efforts on the part 
of Iran that are very provocative. On the confirmation of the 
last 90-day certification that has to be signed every 90 days 
relative to the Iranian compliance with JCPOA, while the 
intelligence did not suggest a breach that would deny 
confirming that----
    Senator Graham. The question is have they been more 
aggressive in the region.
    Mr. Coats. Absolutely more aggressive.
    Senator Graham. Do you agree with that, General?
    Lt. Gen. Stewart. I do not know that I would necessarily 
say they are more aggressive. Their actions in Syria were the 
same.
    Senator Graham. What about Yemen?
    Lt. Gen. Stewart. In Yemen, that has picked up because----
    Senator Graham. Would you say they are a destabilizing 
force in the region?
    Lt. Gen. Stewart. Absolutely.
    Senator Graham. Is there any indication they have taken the 
sanctions money and put it in rogue schools and hospitals?
    Lt. Gen. Stewart. That would be impossible to detect.
    Senator Graham. Is it fair to say that they have increased 
their military capabilities since the agreement?
    Lt. Gen. Stewart. Some of the money that they have gained 
has gone to the military. The preponderance of the money gone 
to economic development and infrastructure.
    Senator Graham. Is Iran a greater threat or lesser threat 
since the agreement, or the same?
    Mr. Coats. I would say it is certainly a threat to the 
region. Whether it is greater or lesser, based on the 
agreement, I am not sure I can assess that.
    Senator Graham. How do you get on the ballot in Iran to run 
for president?
    Mr. Coats. The question is how do you----
    Senator Graham. Yes. How do you get on the ballot to run 
for president in Iran?
    Mr. Coats. It looks like you can get on the ballot, but you 
can get kicked off.
    Senator Graham. Who has the final say who gets on the 
ballot?
    Mr. Coats. I think it is the Supreme Leader.
    Senator Graham. Do you agree with that, General Stewart?
    Lt. Gen. Stewart. Yes, sir.
    Senator Graham. Nobody is on the ballot he does not want.
    North Korea. Is it the policy of the United States to stop 
North Korea from developing a missile with a nuclear weapon on 
top that could hit America, or is it the policy of the United 
States to contain that threat by trying to shoot it down if 
they launch it?
    Mr. Coats. It is the policy of the United States to prevent 
it.
    Senator Graham. Do you agree with that, General Stewart?
    Lt. Gen. Stewart. Yes, Senator.
    Senator Graham. That would mean all options are on the 
table to prevent it. Is that correct?
    Lt. Gen. Stewart. I am certainly not in a position to 
remove any of the options.
    Senator Graham. ISIL [Islamic State of Iraq and the 
Levant]. Our strategy to take Raqqa back has a heavy reliance 
on YPG [People's Protection Units] Kurds. Are you both familiar 
with that?
    Mr. Coats. Yes.
    Lt. Gen. Stewart. Yes.
    Senator Graham. Is that creating friction with Turkey?
    Mr. Coats. Yes.
    Lt. Gen. Stewart. Yes.
    Senator Graham. Do you agree that it would be better if we 
had more Arabs in the fight and less Kurds from a regional 
point of view?
    Mr. Coats. I think General Mattis is the best person to 
answer that question. I think he is very comfortable with what 
the balance is.
    Senator Graham. From an intelligence point of view, do you 
see growing friction between Turkey and Kurdish elements in the 
region?
    Mr. Coats. It appears likely.
    Senator Graham. Is that being driven by our policy to arm 
the YPG Kurds with heavy weapons?
    Mr. Coats. I think it contributes to it.
    Senator Graham. Do either one of you know anything about 
bitcoin?
    Mr. Coats. You know, I tried to figure out what it was and 
I never got a good answer or at least one that I could 
comprehend. I am still using dollars and coins.
    Senator Graham. Me too. Could you do me a favor and look at 
that issue and report back to the committee whether or not you 
believe bitcoin will become the currency of terrorists and 
criminals down the road?
    Mr. Coats. We would be happy to look into that. I think 
there is some indication that it is being used for that 
purpose, but we can give you an assessment of that.
    Senator Graham. Sequestration would be a disaster for both 
of your agencies if it kicked back in?
    Lt. Gen. Stewart. It would continue to cut into real 
capability.
    Senator Graham. The same for you?
    Mr. Coats. It is a little difficult for me to answer that 
question relative to the community as a whole, but it would 
depend on what other supplemental measures of resources would 
be available.
    Senator Graham. Thank you both.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Warren, please.
    Senator Warren: Thank you.
    I do not want to duplicate the questions that others have 
asked, important questions. What I would like to do is just 
take up another area about a serious threat to our security and 
economic issues around the world, and that is climate change. 
The science is unmistakable. Human activities are releasing 
greenhouse gases into the atmosphere and contributing to 
climate change.
    A Defense Department report from 2 years ago observed 
global climate change will have wide-ranging implications for 
U.S. national security interests over the foreseeable future 
because it will aggravate existing problems such as poverty, 
social tensions, environmental degradation, ineffectual 
leadership, and weak political institutions. In short, this DOD 
report describes climate change as a threat multiplier.
    Director Coats, do you agree?
    Mr. Coats. I do not know if I would describe it as a threat 
multiplier, although our job is simply to assess the 
consequences of potential changes in climate relative to 
migration, relative to humanitarian issues. The science falls 
to other federal agencies.
    Senator Warren: That is the question I am----
    Mr. Coats. I think there have always in the history of the 
world been reactions to different climate changes, and it is an 
issue that continues.
    Senator Warren: Well, and the Department of Defense report 
has identified that climate change exacerbates, aggravates--
this is their words--existing problems, poverty, social 
tensions, environmental degradation, ineffectual leadership, 
and weak political institutions. Do you disagree with any of 
that?
    Mr. Coats. No, I do not disagree. I am simply saying that I 
think that has been an ongoing issue throughout the ages.
    Senator Warren: Let me ask the question this way then. How 
should we be integrating climate change risks into our national 
security strategy?
    Mr. Coats. We should be assessing the consequences of 
changes that are relevant to security issues. That should be 
part of the assessment, and it is.
    Senator Warren: Climate change is clearly a threat to 
international peace and security, and I just think it is 
critically important that we take this seriously and we adapt 
accordingly.
    Let me ask you another question. Others have asked about 
the interference of the Russians in our election and now in 
other elections. You talked about this in your opening 
statement. The question I want to ask about is we all agree 
that interference by foreign actors in our democratic process 
is unacceptable, but right now, it does not seem like we are 
doing enough about it.
    My question, Director Coats, is what more do we need to do 
to make sure the United States is sufficiently prepared to 
defend against Russian-style cyber attacks on our elections and 
particularly those that could escalate to attempted 
manipulation directly of voting machines or alteration of 
registration rolls in our 2018 and 2020 elections?
    Mr. Coats. Well, that is a matter for those of you sitting 
on the dais here. That is a policy decision that the country 
needs to make. We provide the intelligence and the basis of the 
accuracy, to the best that we can, of what has happened. The 
response to what has happened is something that the executive--
--
    Senator Warren: You do not have any advice on this?
    Mr. Coats. My job is to provide the intelligence. My job is 
not to make policy. It used to be when I sat up there.
    Senator Warren: Could I ask it differently? Do you think we 
should treat our election systems as critical infrastructure 
and provide cybersecurity assistance directly to state and 
local officials?
    Mr. Coats. Oh, I think that is something we certainly 
should do. Anybody who is trying to undermine the democratic 
institutions of the United States--it ought to be addressed.
    Senator Warren: Thank you.
    You know, when he recently testified before a Judiciary 
subcommittee on Russian interference in our elections, your 
predecessor, James Clapper, said our election apparatus should 
be considered critical infrastructure and should have the 
protections that are attendant to that. I think he is right on 
this. Protecting our election systems from vulnerability should 
be part of our cyber defense strategy.
    Mr. Coats. I agree with that.
    Senator Warren: Good. I am glad to hear that. Thank you 
very much.
    Thank you, Mr. Chairman.
    Mr. Coats. I might add to that that we do not have an 
assessment that any of our voting machines were tampered in 
this election.
    Senator Warren: I understand your point. Thank you.
    Senator Reed. On behalf of Chairman McCain, Senator Tillis, 
please.
    Senator Tillis. Thank you, Senator Reed.
    Director Coats, it is great to see you. We miss you here, 
but we are glad you are where you are.
    Mr. Coats. There are days when I miss you.
    Senator Tillis. Not all days.
    General Stewart, thank you for being here and for your 
service.
    Just a quick follow-up question. To what extent do you 
think the aggressive actions of Russia, Iran, ISIS, North 
Korea, and China, their current strategies, the threat that 
they represent today are inspired by their concern with climate 
change based on your intelligence assessments?
    Lt. Gen. Stewart. I have not seen anything in intelligence 
circles that says their policies, their approach is driven by 
climate change.
    Senator Tillis. Any. Thank you.
    I want to spend most of my time--and I am going to be brief 
so that we have got a vote coming up and defer to my 
colleagues. I want to go back to your opening statement, 
Director Coats. You were talking about section 702 and the need 
for reauthorization. Can you give us some sense for public 
consumption of how that tool has been used to identify real 
threats and potentially intervene before a bad action takes 
place, some rough order of magnitude if not specific numbers?
    Mr. Coats. A lot of our threats have come from foreign 
sources, and when we have information that leads us to a 
potential foreign source, then examination of that in terms of 
what they might be planning to do, who they may be talking to 
in terms of--accomplish an attack on the United States has been 
an invaluable piece of information that has prevented many, 
many attacks. As I mentioned earlier, it is also to the great 
gratitude of our allies in Europe and elsewhere--have prevented 
numerous, numerous threats that could have turned into 
disastrous attacks. It has been a very essential element of our 
collection process.
    Obviously, as we all know, we are talking here about 
foreign non-U.S. persons that have bad intentions toward the 
United States. It may be that those persons are connecting with 
someone here in the United States, and we want to make sure 
what is being transferred in that regard.
    During that process, it is possible that U.S. citizens? 
Names are mentioned in an email, mentioned in a verbal way. We 
give immediate attention to what we call minimization, and that 
is we want to make sure we are not doing collecting on those 
persons.
    The program has adapted to ensure that we provide privacy 
protections for U.S. persons. There is a process that we go 
through, minimization being one of those.
    We also have oversight. It is the most overseen effort that 
the United States has against any policy matter or agency in 
government. All three branches have oversight capability in the 
program to ensure the privacy of individuals.
    I think there is a lot of misunderstanding about what 702 
is and what it is not. We have scheduled and will continue to 
schedule specific meetings with the relevant committees in the 
Congress to describe exactly what is done and what is not done 
and make sure the public itself is fully aware of the 
importance of the program but also the privacy protections that 
have been put upon it and the oversight.
    Senator Tillis. Would it be fair to say that if we failed 
to reauthorize it, even if we address some of the concerns that 
came up with the unmasking of maybe U.S. citizens--but would it 
be fair to say that if we failed to reauthorize 702, that it is 
probably going to lead to disastrous consequences?
    Mr. Coats. I believe it would, and I think a lot of 
Americans will die unnecessarily.
    Senator Tillis. Thank you.
    Senator Reed. Thank you very much.
    On behalf of Chairman McCain, Senator Peters, please.
    Senator Peters. Thank you, Senator Reed.
    Thank you to our witnesses today for your testimony.
    We know that China is currently executing a multi-decade 
strategic plan to acquire the United States' technologies that 
they believe will be foundational both to their future economic 
growth, as well as to their military strength. The primary tool 
that we use is to block or mitigate foreign investments that 
pose a national security
    risk is the Committee on Foreign Investment in the United 
States, or CFIUS. Both of you, I know, are very familiar with 
this and because the intelligence community plays a key role in 
the process, developing the national security threat assessment 
used to inform committee decisions.
    Based on its current mandate, however, CFIUS reviews 
transactions just on a case-by-case basis rather than a 
strategic assessment of acquisitions or acquires and only those 
transactions that involve a controlling interest by foreign 
investors. However, as we have seen recently and continue to 
see on a regular basis, other transaction types such as joint 
ventures and minority investments also can result in the 
transfer of key technologies that are outside of CFIUS? 
jurisdiction.
    At the same time, the intelligence community CFIUS workload 
is also increasing rapidly, a workload marked by increased 
Chinese investment in the very technologies that are the key to 
United States innovation and military advantage, including 
autonomous vehicles, artificial intelligence, robotics, virtual 
reality, as well as gene editing.
    So, Mr. Coats, my question is CFIUS remains a voluntary 
process, which I think underscores the importance of the 
intelligence community to identifying both unreported and non-
notified transactions that may pose a national security risk. 
What are some of the challenges in finding the technical 
expertise necessary to understand and resolve potential 
national security implications across this very diverse threat 
spectrum?
    Mr. Coats. I would like General Stewart to address this 
also.
    This issue has been raised and it is under consideration. I 
think your questions are very valid relative to the current 
status of CFIUS and whether or not adjustments need to be made.
    Relative to finding the right technical capabilities to 
assess this, we are in contest with the private sector, the 
private sector that offers significantly higher compensation 
for the people they hire and probably a better work schedule. 
Nevertheless, we are blessed with people who want to give 
service to their government and to work longer hours with 
lesser pay but bring technical capabilities. We are out trying 
to recruit these people constantly, whether you are talking to 
Admiral Rogers at the National Security Agency or other of our 
agencies. We need to understand that at a certain point to gain 
the kind of technical capabilities that we need, we may have to 
look at our salary structure because just about every major 
corporation in America now, whether it is cyber or other 
issues, are looking to find people with these capabilities.
    Nothing is more important than protecting the safety of 
Americans, and that is the first responsibility of government. 
I do think on two areas, on the basis of what you have said, we 
ought to do a significant review of the current CFIUS situation 
to bring it up to speed, number one, and then look at how we 
can get the best and the brightest to be able to help us with 
that.
    Senator Peters. Before that answer, General, so I could 
take from your answer that we need to really fully examine the 
CFIUS authorization and have a top-to-bottom review of that. 
Would you agree, General?
    General, if you would also respond to the fact that right 
now you have a considerable workload before you now that 
continues to expand and how that reauthorization may be 
necessary to help you----
    Mr. Coats. I was not trying to give Vince more work.
    [Laughter.]
    Lt. Gen. Stewart. That is okay. I will take it.
    Yes. China has approached leap-ahead technology with a 
legal or illegal transferring intellectual property, 
transferring of knowledge, acquiring corporate sector, private 
sector, industry to get that technology, insertion of students 
into the upstream development of technology and the 
capabilities.
    So, yes, all of that needs to be reviewed especially in 
light of the fact, voluntary primarily, and the workload 
continues to grow. We did 174 CFIUS cases last year. We are on 
a pace for 250 this year and no growth built in. This is going 
to get harder, more demanding, and we are going to lose 
opportunities if we do not review the authorization.
    Senator Peters. Right. Thank you, gentlemen.
    Senator Reed. Thank you.
    On behalf of the chairman, Senator Perdue, please.
    Senator Perdue. Thank you both for being here.
    General Stewart, you said in your opening remarks that we 
have gone from a one plus one strategy in our military to today 
we have four plus one. You just mentioned five: North Korea, 
Russia, China, Iran, extremists. On top of that we have cyber 
and space.
    The question I have--I am sort of a bottom line guy. I want 
to talk about China and Russia, our two symmetric contrarian 
threats I believe. China is spending--right now this year it is 
projected in real equivalent purchasing power parity terms, 
they will spend $826 billion on their military. We will spend 
directionally $600 million. I would argue that today we have 
the smallest Army since World War II, the smallest Navy since 
World War I, and the smallest and oldest Air Force ever.
    Sir, in your mind, what is China's purpose in this massive 
buildup that they are in the midst of right now?
    Lt. Gen. Stewart. Purpose number one, to be able to fight 
and win in the Pacific.
    Senator Perdue. Would you say they are on parity with us in 
the Pacific today? Does your intelligence reveal that?
    Lt. Gen. Stewart. In some aspects--and I will not talk 
about them here--there is parity, but in some areas we are 
still far superior. We look at them in all domains, space, 
cyberspace, air, land, sea, and surface. We are competing in 
all those domains.
    Primary objective, fight and win in the Pacific. Be 
prepared if the United States entered a conflict in the Pacific 
and increase the cost of any of our actions in the Pacific.
    Senator Perdue. Are you concerned about the PLA [People's 
Liberation Army] reorganization in China? What effect does our 
intelligence say it will have on our ability to stand up to 
them?
    Lt. Gen. Stewart. They not only continue to reorganize, 
they continue to refine tactics, they continue to refine 
doctrine. We have not seen them do the major end-to-end full-
scale rehearsal that says all of those pieces are stitched 
together in a real warfighting capability. They are building 
pieces but it is not fully integrated.
    Senator Perdue. Director--it is hard to call you ?Director? 
but I am glad I can. Thank you.
    Today Africa is a major involvement for China economically, 
militarily. They are building a base right now in Djibouti just 
miles away from our base at Lemonnier. What is the purpose of 
that base, and are you concerned? What does our intelligence 
say that their objective is in Africa?
    Mr. Coats. Well, the Chinese are expanding their influence 
globally. They are looking at areas of the world that you would 
not necessarily think a regional power like China would want to 
be engaged in, but whether it is Africa, whether it is Latin 
America, whether it is any number of places, the Chinese are 
making substantial investments and sometimes linking that, as 
you mentioned, with Djibouti and building a base there. I think 
they view that as part of their long-term strategy to become a 
global power, not just a regional power. They are spending an 
extraordinary amount of effort and investment. That One Belt 
road situation gives them expedited access to Europe but access 
also to the Indian Ocean region and the Middle East. They have 
been very aggressive in pursuing those types of initiatives I 
think with a long-term strategy in mind of being a global 
power.
    Senator Perdue. General, Russia----
    Lt. Gen. Stewart. Can I answer, if I could?
    Senator Perdue. Yes, sir.
    Lt. Gen. Stewart. One Belt, One Road is about getting 
access to resources and access to markets. If you have access 
to resources, access to markets, you got to build 
infrastructure to defend your economic lifeline.
    Senator Perdue. I want to get to Russia, but history says 
that the country with the largest and strongest economy will 
have the largest and strongest military. Today China's economy 
is on parity with the United States when adjusted for 
purchasing power parity. They have a much stronger growth rate, 
and I think that is one of the things we have to deal with.
    I want to move to Russia very quickly. I only have a minute 
left. General, Russia in the last 5 years has dramatically 
changed their global footprint. They have Murmansk, 
Kaliningrad, Crimea now, and now Tartus and Latakia on the 
coast of Syria.
    In your mind, what does our intelligence say that Russia 
intends to do with that encircling of that part of the world 
with those major bases, now warm water and cold water?
    Lt. Gen. Stewart. The encirclement, as you describe it, the 
Western anti-access barrier, runs from the Arctic through 
Murmansk, through Kaliningrad, Crimea, and down is to break out 
of the encirclement--their words--caused by NATO countries in 
their near abroad. So, again, the anti-access/anti-denial 
capability is to increase the cost of any United States-NATO 
action against Russia and to protect to give them buffer space. 
I do not think they are done. I think they would like to extend 
that barrier down through the Mediterranean. I am worried about 
actions that they might take in Libya to increase that barrier. 
That is about breaking out of the NATO encirclement.
    Senator Perdue. Thank you, sir.
    Thank you.
    Senator Reed. On behalf of Chairman McCain, Senator 
McCaskill, please.
    Senator McCaskill. Thank you, Mr. Chairman.
    I was pleased that the President went to an Arab nation, a 
Muslim country, as his first visit, signaling to the world that 
we want to have allies in the Muslim world, that this is very 
important.
    My question to the two of you is, are we sending enough 
signals like that to the American Muslim community? I think I 
have you all and others that have jobs like yours in our 
government say that the biggest threat is the radicalization of 
people that are legally in this country, not Syrian refugees, 
not people traveling here from other countries, but what we 
have seen is the radicalization of people that either are 
American citizens or are legally in the country and have been 
for some time.
    Do you all feel comfortable that we are doing enough to 
reach out to the American Muslim community, especially the 
personnel that we can use as maybe our most valuable assets in 
terms of what you all need to do within the intelligence 
community?
    Mr. Coats. I do not have an assessment of how we are 
reaching out to the American Muslim community. In general, I 
can say, relative to our intelligence community, we realize 
that the diversity of ethnic, cultural, any number of ways is 
important for us to understand the world that we live in and 
get a better understanding from people who bring different 
assessments in different cultures and give us the diversity we 
need to fully understand what is going on. That is very much a 
part of our recruiting process.
    Senator McCaskill. What worries me is that in America, 
there are too many people I have talked to, wonderful American 
Muslims, who feel very disconnected right now, and there is a 
tendency when that happens to internalize and not come forward 
and especially if they have some concerns about somebody being 
radicalized. Do you all share that concern and are you all 
taking steps with the intelligence community to deal with that 
concern?
    Mr. Coats. Well, we do not see that as the role of the 
intelligence community except in the area of, as I described, 
how we hire, promote, train, and incorporate people from 
different cultures, different ethnic backgrounds.
    Senator McCaskill. Let me interrupt you just for a second, 
Director. When you see evidence that someone might be 
radicalized through the gathering of intelligence here in 
America, do you hand that intelligence off to someone who could 
then circle around to people within that Muslim community in 
that geographical area to try to get confirmation or additional 
evidence that would allow us to put people in prison like we 
did Nassir when we thwarted his effort on the New York subway 
system? He is in our prisons now for 40 years.
    Mr. Coats. Well, the FBI is a part of the intelligence 
system, but there is the division between the investigatory and 
potential criminal activity that the FBI has control over 
relative to the intelligence aspect of the FBI. That is 
something that if information is garnered, it is passed on to 
the FBI to determine whether or not there is an investigation 
or potential criminal element in play.
    Senator McCaskill. Okay.
    Let me briefly because I only have a minute left. I am 
worried about chemical weapons in North Korea. Open source 
reporting has indicated that Kim Jung-un's half brother may 
have been assassinated with VX gas. There are those who have--
the Nuclear Threat Initiative has indicated they have 5,000 
metric tons of chemical weapons in North Korea. Can you confirm 
that VX was used to kill Kim Jong-un's half brother?
    Mr. Coats. That is something that I would have to get back 
to you with.
    Senator McCaskill. We train on chemical weapons defenses at 
Fort Leonard Wood, and I know obviously with the proximity of 
so many millions of people in South Korea and the delivering 
especially of VX could be in such a way that it would be 
devastating. I am wondering if we have enough assets. Admiral 
Harris is trying to check to see if we have enough assets on 
the ground as it relates to chemical weapons.
    Lt. Gen. Stewart. Chemical weapons is assessed to be part 
of the North Korean arsenal.
    Senator McCaskill. If there is any other information you 
all can provide me on that in terms of our capabilities in 
terms of defense of that, I would be very appreciative.
    Thank you both for your service to our country.
    Senator Reed. Thank you very much.
    Because of the pending vote, I must depart. Let me 
recognize Senator Sullivan and ask him to further recognize 
members in order of their appearance, if the chairman does not 
return. We expect he will return shortly.
    Senator Sullivan. Okay, Mr. Chair. I am going to go vote 
myself after these questions.
    Senator Reed. Okay. Then let me go ahead and recognize 
Senator Sullivan, then Senator King, then Senator Kaine, unless 
a Republican member intervenes, and then that person will be 
recognized. Senator Blumenthal also. I will try to get back 
here as quickly as I can. Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chair.
    Gentlemen, thank you for your testimony.
    Director Coats, great to see you.
    I appreciate your focus in your written statement on the 
North Korean ICBM threat with regard to nuclear weapons. It is 
obviously a new direct threat to the United States. There has 
been testimony across the board in terms of our military and 
intelligence officials' public testimony that it is no longer a 
matter of if but when Kim Jong-un is going to have the 
capability to hit not just a state like mine Alaska or Hawaii, 
which are much closer in range, but the lower 48, the 
continental United States with an intercontinental ballistic 
nuclear missile at some point.
    I and a number of members of this committee, bipartisan, 
have introduced a bill yesterday. It is looking at 
significantly enhancing and advancing our homeland missile 
defense.
    I would like to get your sense in terms of the estimates. 
What do you think the estimates are with regard to when Kim 
Jong-un will be able to have this capability? I think it is a 
very important question. I know that you do not have a precise 
date, but I think that the American people need to know it is 
probably a lot sooner than most people anticipate. Can you give 
us a range of--you know, a window on when you think that 
capability is going to exist for this very unstable leader who 
has threatened to shoot nuclear missiles at our homeland?
    Mr. Coats. I would like to be able--I will turn to General 
Stewart, but I think we would both like to be able to talk to 
you about that in a classified manner, session.
    I would say this. I mean, we certainly assess that this is 
the intent of North Korea and Kim Jong-un. It has been publicly 
stated that they would like to have intercontinental ballistic 
missile capability--nuclear capability that could reach the 
United States, and they are on that goal. Relative to exactly 
where we are and what and when, of course, is dependent on 
their testing and ability. As I testified in my opening 
statement here, they have not reached that capability yet.
    Senator Sullivan. All right. There has been public 
testimony from military leaders, intel leaders that they are 
going to get it, not if but when. I know that we have 
estimates. I know that some of them are classified. I actually 
just think it is very useful to let the American people know. 
This is not 15 years off. This is not 10 years off.
    General, can you give us an estimate just, you know, within 
a couple years? I mean, it is actually a really important 
issue. People are going to wake up to it some day relatively 
soon. This is an enormous threat, and I think the more we are 
able to be public about it, the better.
    Let me just repeat it has been stated in open testimony a 
number of times before this committee it is going to happen. It 
is going to happen. He is going to have that capability. Can 
you just give us a window of what the best estimates are on 
that intel?
    Lt. Gen. Stewart. As I said earlier, left unchecked, it is 
going to happen.
    Senator Sullivan. How about a window?
    Lt. Gen. Stewart. If I gave you a window, it would be a 
potential to reveal the insights that we have on the 
capability. We will not do that here. It is inevitable if left 
unchecked.
    Senator Sullivan. Let me turn to Iran. You know, under the 
Iran nuclear agreement, Iran is restricted to 130 metric tons 
of heavy water. However, in 2016, the IAEA [International 
Atomic Energy Agency] reported that they had in fact--they, 
Iran--surpassed that threshold twice. Do you believe that Iran 
is in violation of the agreement right now?
    Mr. Coats. The intelligence assessment relative to the 
certification that was signed perhaps, I think, 3 or 4 weeks 
ago----
    Senator Sullivan. That was the certification by the IAEA. 
Correct?
    Mr. Coats. That is the certification that we have to 
provide to the Congress every 90 days.
    Senator Sullivan. Is that not based on IAEA's assessment?
    Mr. Coats. It is based on IAEA assessments, as well as our 
own assessments.
    Senator Sullivan. Well, how much confidence do we have in 
that assessment that said Iran was in full compliance when in 
2016, the IAEA said that they violated the heavy water 
provisions twice. It is something that I think is a real 
disconnect between what the facts seem to be and what Secretary 
Tillerson stated and what our intel community is saying. How 
can you say they are in compliance----
    Chairman McCain. I apologize to the Senator, but we agreed 
at the beginning that Director Coats and General Stewart would 
be out of here in 5 minutes, and we have----
    Senator Sullivan. Mr. Chairman, can I just get an answer to 
that question?
    Chairman McCain. No. We have got three people to be in 5 
minutes. I apologize.
    Senator Blumenthal, would you do me the favor of asking one 
question and allowing the other two to ask a question? would 
that be agreeable to you, Director Coats? One question each.
    Mr. Coats. I appreciate that, Mr. Chairman. I apologize--I 
mean, I do not apologize, but I have an event at the Supreme 
Court with the Chief Justice. We want to not be late on that.
    Chairman McCain. I understand.
    Would that be agreeable to the members to have a question 
each?
    Senator Blumenthal?
    Senator Blumenthal. Director Coats, thank you very much for 
being here, and I know that given the oath that you have taken 
and your long record of public service, you would never allow 
anyone, including the President of the United States, to 
discourage or deter you from a lawful investigation. Your non-
denial of the ?Washington Post? report I think should lead to 
even more intensive investigation of the alleged effort by the 
President to enlist you in shutting down or stifling that 
investigation. This evidence, if true, goes to criminal intent 
and constitutes mounting evidence of obstruction of justice. 
You are aware that obstruction is a crime, and I am sure that 
you will cooperate in an investigation of that crime. I presume 
that you would not agree with the President of the United 
States that this investigation of Russian meddling and possible 
collusion by the Trump campaign in that interference in our 
election is a witch hunt.
    Therefore, I want to ask you whether you have discussed 
efforts by the President to stifle or stop the investigation or 
enlist you or Admiral Rogers in denying that such an 
investigation of collusion focused on him, whether you have 
ever discussed these reports with anyone, including Admiral 
Rogers.
    Mr. Coats. Well, Senator, as I said in my opening 
statement, I am not going to characterize my conversations that 
I have had with the President.
    Senator Blumenthal. I am not asking about your conversation 
with the President. I do not mean to be misunderstood. Have you 
talked about this issue with Admiral Rogers?
    Mr. Coats. That is something that I would like to withhold 
that question at this particular point in time.
    Senator Blumenthal. I am going to assume that in 
withholding the question, the implicit answer is that, yes, you 
have. I would like to know in another setting, if necessary, 
what the substance of that conversation was.
    Chairman McCain. Let me just say for the record, Director 
Coats, your response to my question in no means meant yes or 
no. It meant that your conversations with the President are 
private. Senator Blumenthal can have his interpretation. My 
interpretation of your answer to my question was that it is 
privileged conversations between the President and members of 
his team.
    Senator King?
    I in no way interpret your response to my question as 
inferring anything except that you are keeping with the 
tradition of privacy of conversations between members of the 
President's national security team and the President.
    Senator Blumenthal. Mr. Chairman, I respect that point. 
Thank you.
    Chairman McCain. Senator King?
    Senator Blumenthal. Thank you.
    Chairman McCain. Thank you.
    Senator King?
    Senator King. Is the intelligence community, Director 
Coats, doing an assessment of the nature and impact of the 
information revealed to the Russian Ambassador and Russian 
Foreign Minister by the President?
    Mr. Coats. I am sorry. Would you----
    Senator King. Is there an assessment being done or that has 
been done of the significance and impact of the release of that 
information?
    Mr. Coats. We have not initiated an assessment of that. 
There are procedures that we go through to determine when 
assessments have been made or need to be made. There is a 
process that we go through. It is my understanding we have not 
initiated that.
    Senator King. Has there been any reaction from other 
countries to the intelligence community about the revealing of 
this information to the Russians and a reaction from other 
countries to the intelligence community?
    Mr. Coats. I do not--of course, I am just back from some of 
those countries. The issue was not raised during my time there 
on that specific question.
    Senator King. The intelligence communities of other 
countries did not raise this issue with you at all on your 
trip?
    Mr. Coats. They did not raise that specific question.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you to the witnesses.
    Chairman McCain. I thank the members' indulgence.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    In the aftermath of the recent budget deal that was reached 
here in Congress in late April, the President tweeted out 
something that it might be time for a, quote, good shutdown, 
close quote, in September. With respect to the missions of both 
of your agencies, the DIA and then the Director of National 
Intelligence, in terms of dealing with worldwide threats, the 
topic of today's hearing, would there be anything good about a 
shutdown of the government of the United States?
    Mr. Coats. Well, there might be some good and some bad. I 
mean, if the shutdown involved functions that were not 
producing or essential, but if you are talking about an across-
the-board shutdown, I have never believed that that is the way 
we ought to handle our business here and that definitely it 
could potentially have an impact on our ability in collection.
    Senator Kaine. General Stewart?
    Lt. Gen. Stewart. Not only would it impact our operations, 
but it has a debilitating effect on the workforce every time we 
talk about shutting down and they have uncertainty as to how 
they are going to get paid the next payday. A debilitating 
effect.
    Senator Kaine. Thank you.
    Thanks, Mr. Chair.
    Chairman McCain. I thank you, Director Coats and General 
Stewart. I know this is a very difficult time, and I appreciate 
your candor. I also know that the committee understands there 
are areas that simply are protected by the relationship that 
the President has with his team and the people he relies on.
    I would like to repeat again that there is a lot more to be 
found out, but also these leaks are not good for your business. 
Is that not correct?
    Mr. Coats. That is absolutely correct. They are 
devastating. As I have said, disclosing methods and sources put 
our patriot people who are doing great service for this 
country--it puts their lives at risk and it puts the lives of 
Americans at risk because it details the methods with which we 
have gained information that has prevented attacks against the 
United States.
    Chairman McCain. Do you believe that there are lives at 
risk because of these leaks?
    Mr. Coats. Potentially yes.
    Chairman McCain. I thank you.
    Did you want to say anything else?
    Senator King. Well, I wanted to ask the witness in follow-
up to your question. Which would you consider worse? A leak to 
the American people or a leak to the Russian Foreign Minister?
    Chairman McCain. This hearing is adjourned.
    Senator Blumenthal. Mr. Chairman, can I ask one quick 
question?
    Chairman McCain. No.
    Senator Blumenthal. That is all right. Thank you.
    Chairman McCain. I did assure. We will be seeing him again, 
unfortunately for him.
    [Whereupon, at 11:34 a.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Tom Cotton
                           open skies treaty
    Senator Cotton. Lt. Gen. Stewart, in previous testimony on the Open 
Skies Treaty you have stated that ``The things that you can see, the 
amount of data you can collect, the things you can do with post-
processing, allows Russia, in my opinion, to get incredible 
foundational intelligence on critical infrastructure, bases, ports, all 
of our facilities . . . So from my perspective, it gives them a 
significant advantage.''

    1. Lt. Gen. Stewart, is this still the case? Can you please 
describe how Russia has used its new Open Skies Treaty senor and what 
they've overflown? Please elaborate.
    Lt. Gen. Stewart. [Deleted.]

    2. Senator Cotton. Lt. Gen. Stewart, we also know that Russia is 
restricting United States. Open Skies Treaty over parts of Russia. I 
know that there was a working group to try and resolve those compliance 
issues. Is DIA supporting that effort? Can you provide an update as to 
if any progress has been made?
    Lt. Gen. Stewart. [Deleted.]
                               __________
              Questions Submitted by Senator Dan Sullivan
                          north korean threat
    3. Senator Sullivan. Director Coats and Lt. Gen. Stewart, in your 
testimony, you stated that North Korea is ``one of the hardest nations 
that we have to collect against'' due to its insular society, gaps in 
United States ISR, and its limited broadband internet connectivity. 
Given these challenges, can we truly have high confidence that we know 
all of North Korea's capabilities?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    4. Senator Sullivan. Director Coats and Lt. Gen. Stewart, Victor 
Cha, an expert from the Center for Strategic and International Studies, 
stated that the success of Kim Jong-un's most recent launch 
``demonstrates that we have once again underestimated North Korea's . . 
. capabilities.'' What are the consequences if we end up 
underestimating the pace at which North Korea can improve its ballistic 
missile and nuclear capabilities?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    5. Senator Sullivan. Director Coats and Lt. Gen. Stewart, in light 
of this possible or even likely underestimation, what should the U.S. 
be doing to evolve our capabilities--to include our missile defense 
capabilities--not just to pace, but to outpace potential threats?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                 russia's militarization of the arctic
    6. Senator Sullivan. Director Coats and Lt. Gen. Stewart, Secretary 
Mattis has stated, ``the Arctic is key strategic terrain . . . and 
Russia is taking aggressive steps to increase its presence there.'' 
Over the past year, has Russia's militarization of the Arctic continued 
to increase? If so, how?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    7. Senator Sullivan. Director Coats and Lt. Gen. Stewart, in your 
assessment, what is Russia's impression of the lack of visible United 
States presence in the Arctic?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    8. Senator Sullivan. Director Coats and Lt. Gen. Stewart, in April, 
Russia unveiled a large new military base in the Far North, and even 
published a virtual tour of this new base online for the world to see. 
In your assessment, what is Russia's intent in publicizing the opening 
of a huge military base in the Arctic?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    9. Senator Sullivan. Director Coats and Lt. Gen. Stewart, the 
current DoD Arctic Strategy identifies significant shortfalls in U.S. 
domain awareness in the Arctic. Given Russia's continuing military 
buildup of the Arctic region, what capabilities and intelligence-
gathering systems do you both need to fill this critical intelligence 
gap and help us better discern Russia's plans and intentions in the 
Arctic?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               __________
               Questions Submitted by Senator Bill Nelson
                  cyber threat and information warfare
    10. Senator Nelson. Director Coats and Lt. Gen. Stewart, on the 
cyber threat--I'm concerned, despite the improvements we've made to our 
cybersecurity, that we're too focused on cyber defense, and not on 
countering information operations. For example, Russia's attempts to 
influence our election and elections around Europe are conducted mostly 
online, using relatively unsophisticated techniques. The intent is to 
shape the way people think, and the potential consequences for 
democratic institutions are serious. Do you share that concern? When 
thinking about the cyber threat, does the Intelligence Community 
include the threat of information warfare--from Russia or any other 
adversary?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               venezuela
    11. Senator Nelson. Director Coats, in the last several months, the 
situation in Venezuela has gone from very bad to even worse. Maduro--
with the help of his cronies--has once again cracked down on protestors 
and sought to undermine Venezuela's democracy, including using the 
courts to try to strip the National Assembly of its powers. All the 
while, the Venezuelan people suffer. In your view, what are the risks 
for the United States and the region of Maduro's creeping dictatorship 
and continued unrest and suffering in Venezuela?
    Director Coats. [Deleted.]
                    transnational criminal networks
    12. Senator Nelson. Director Coats and Lt. Gen. Stewart, in your 
written testimony, you highlight the continuing threat posed by 
transnational organized crime networks--many of which have close 
relationships with terrorist groups and even some governments. What can 
you tell us about the role of organized crime in both drug trafficking 
and cyber?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               __________
            Questions Submitted by Senator Claire McCaskill
     north korea chemical and biological weapons programs and usage
    13. Senator McCaskill. Director Coats and Lt. Gen. Stewart, has the 
intelligence community been able to assess whether or not VX was used 
to assassinate Kim Jong-un's half-brother, Kim Jong-nam?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    14. Senator McCaskill. Director Coats and Lt. Gen. Stewart, has the 
intelligence community been able to assess whether or not North Korea 
was responsible for the assassination of Kim Jong-nam?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    15. Senator McCaskill. Director Coats and Lt. Gen. Stewart, what is 
the known status and disposition of North Korea's chemical and 
biological weapons programs?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    16. Senator McCaskill. Director Coats and Lt. Gen. Stewart, what 
does the intelligence community know about North Korea's ability to 
deliver chemical and biological weapons?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
    17. Senator Gillibrand. Director Coats, I asked whether you would 
make any documentation from you or Admiral Rogers (regarding 
conversations with the President on Russian interference in the 2016 
U.S. election) available to special counsel Robert Mueller and the 
congressional intelligence committees--if such a document exists. You 
told me that you have ``no documents'' to make available. According to 
an NBC News report, you and Admiral Rogers were ``sufficiently 
concerned about the [President's] requests that one of [you] wrote a 
memo about it'' and you ``exchanged notes about [your] conversations 
with the president.'' Please clarify, in writing, your response to my 
earlier question in which you claimed you have ``no documents'' to make 
available documenting your conversations with the President or 
exchanges with Admiral Rogers. Do you, or did you, have any 
documentation, notes, recordings, or other records of your 
conversations with President Trump or subsequent correspondence with 
Admiral Rogers?
    Director Coats. [Deleted.]
                               __________
           Questions Submitted by Senator Richard Blumenthal
              full committee hearing on worldwide threats
    18. Senator Blumenthal. Director Coats, in January, the 
intelligence agencies released a declassified report that found Putin 
ordered an ``influence campaign'' to ``undermine public faith in the US 
democratic process.'' Following concerning signals from the 
Administration that they might roll back sanctions, bipartisan bills 
that I have cosponsored were introduced--including the Countering 
Russian Hostilities Act and the Russia Sanctions Review Act. These 
bills codify former President Obama's Executive Order that authorizes 
the imposition of sanctions on those engaged in malicious cyber-
hacking, which was used to sanction Russia for interfering in our 
election in December. Our electoral process is a foundational element 
of our country's democracy and we must do everything possible to defend 
the integrity of this process moving forward. The 2018 United States' 
mid-term election is quickly approaching, and we must makes sure Russia 
will not even consider interfering. What are the lessons learned from 
the 2016 election? What should we be doing to prevent Russia--or any 
other state or non-state actor--from conducting influence campaigns 
designed to disrupt our elections?
    Director Coats. [Deleted.]

    19. Senator Blumenthal. Director Coats, do you agree that Russia 
must pay a price for its cyber-attacks and interference in our 
election? Do you agree that our actions so far have not made Russia 
realize that they have more to lose than gain with their behavior? What 
should be done?
    Director Coats. [Deleted.]

    20. Senator Blumenthal. Director Coats, we have sanctioned just 11 
Russian individuals and entities for malign cyber activity--9 related 
to election interference and 2 for other malicious cyber activity--all 
done by President Obama under revised Executive Order 13964 on December 
29. Do you agree that we should strengthen cyber sanctions against 
Russia for their actions?
    Director Coats. [Deleted.]

    21. Senator Blumenthal. Director Coats, do you believe the 
President has a responsibility to ensure any classified information he 
shares should only be done to make our country safer? Do you believe 
that if the President wants to share classified information provided by 
another country, that other country should be consulted before anything 
is divulged to a third party?
    Director Coats. [Deleted.]

    22. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, Iran's 
support for terrorism, ballistic missile development, and human rights 
violations continue. In the last few months, Iran has tested and fired 
a ballistic missiles, tested a new Russian-made S-300 missile air 
defense system, and harassed U.S. ships. Further, Iran continues to 
prop up the Assad regime, as well as continues to supply the flow of 
Iranian weapons to Syria, Yemen, and Hezbollah. Last week, the State 
Department released a report on Iran's human rights violations--
continuing to show a troubling trend of abuse. Although the Trump 
Administration enforced sanctions against 25 entities and individuals 
in February for its most recent ballistic missile test, as well 
sanctioned seven more individuals and entities last week for ballistic 
missile support and support to the Assad regime, clearly we must do 
more to deter their belligerent behavior. Last month, Secretary 
Tillerson certified that Iran continues to comply with the JCPOA and 
last week the Administration waived nuclear-related sanctions on Iran 
in accordance with the deal. Do you agree with this assessment? If the 
Trump Administration steps back from the JCPOA, what would the 
implications be? How do you anticipate parties to the deal would react?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    23. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, what 
is your current assessment of Iran's non-nuclear activities--support 
for terrorism, ballistic missile development, and human rights 
violations? What are the most pressing long-term military implications?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    24. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, it is 
well known that Iran strongly backs and supports Hezbollah--a terrorist 
group that maintains over 150,000 rockets and missiles pointed at 
Israel. What is your current assessment of Hezbollah' s threat and how 
can we better counter it? How are we working to identify and stop the 
flow of Iranian weapons to Syria and Hezbollah?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    25. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, I have 
tirelessly advocated for maintaining Israel's qualitative military edge 
so that it can defend itself against any threat that may arise from 
Iran. What is the most effective military aid we can provide to Israel?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    26. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, the 
intelligence community has assessed in the past that ballistic missile 
technology cooperation between Iran and North Korea is ``significant 
and meaningful.'' Given both countries have continued testing in 
violation of UN Security Council resolutions, what is the current state 
of ballistic missile cooperation between them?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                      syria and russian complicity
    27. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, Russia 
continues to prop-up Syrian President Bashar al-Assad--a war criminal 
that kills and tortures his own people. Last month we are all painfully 
aware of the gruesome sarin attack that injured hundreds and killed at 
least 94 people--many of them children. Last week, the State Department 
released satellite imagery showing that Assad has a crematorium at a 
military prison to clandestinely dispose of political prisoners--
harkening back to the darkest days of history. This reprehensible 
activity cannot continue and this Administration must do more to make 
it clear to Russia that their support for Syria must end. Russia's 
involvement in Syria has directly, deliberately, and detrimentally 
harmed the situation on the ground.

    Without Russia, Assad could not wantonly go on murdering his own 
people--through gassing, hanging, or other despicable methods. Do you 
agree? What are you doing to ensure a plan and policy is developed to 
address Russia's complicity in Syrian war crimes?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                             cyber security
    28. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, Former 
Director of National Intelligence James Clapper has stated that he 
believes the biggest threat to national security is cyber. The OPM 
hacks, 2016 election interference, and WannaCry virus that impacted at 
least 200,000 computers this month demonstrate our weakness in this 
realm. As the internet touches more and more aspects of our daily 
lives, the ways in which a cyberattack can harm American citizens are 
growing. In addition, our adversaries have repeatedly demonstrated a 
desire and willingness to conduct offensive cyber operations. How do 
you define a cyber-attack? What constitutes an act of war in the cyber 
realm?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    29. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, 
earlier this month we heard a great deal from former military and 
intelligence leadership about the need to ensure our cyber capabilities 
are both more defensive and resilient. Do you agree? What are you doing 
to improve our capabilities?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    30. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, how 
are you working with DHS to protect critical infrastructure from 
cyberattacks?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    31. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, do you 
consider those actions to be acts of war?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               inf treaty
    32. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, Russia 
has deployed two brigades of ground-launched cruise missiles that US 
officials say violate the INF Treaty (Intermediate-Range Nuclear Forces 
Treaty). The INF Treaty was signed in 1987 to eliminate land-based 
intermediate and short-range ballistic and cruise missiles (310-3,400 
mile range). The Obama Administration claimed since 2014 that Russia 
was developing this ground-launched cruise missile in violation of the 
INF Treaty, and Russia continues to deny wrongdoing. At a SASC hearing 
last month, Gen Scaparrotti told me that he agreed that Russia had 
violated the INF Treaty and that he had provided recommendations to 
DoD. At the end of March, Secretary Mattis said, ``On the INF issue, 
we're in consultation with our allies and we are still formulating a 
way ahead. In fact, it will be addressed, I think, very, very soon as a 
matter of highest-level concern.'' Yet we still do not have a response 
to this issue nearly two months later. How serious of a threat is 
Russia's violation of the INF treaty? Are you involved in developing a 
strategy to respond? When do you anticipate this will be finalized?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    33. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, in 
what ways can the United States pressure Russia to come into 
compliance? How can we convince Russia that violating this treaty is 
not worth the cost?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    34. Senator Blumenthal. Director Coats and Lt. Gen. Stewart, how 
can we best protect our troops and allies from these deployed missiles 
without escalating the situation and while staying in compliance with 
the INF Treaty?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                       president trump and russia
    35.Senator Blumenthal. Director Coats, I want you to give us a 
clear and factual understanding of exactly what took place in the 
reported actions of the President to obstruct the FBI' s Russia 
investigation.
    Director Coats. [Deleted.]

    36. Senator Blumenthal. Director Coats, do you concur with the 
statement of former FBI Director Corney before Congress that the FBI is 
investigating, ``the nature of any links between individuals associated 
with the Trump campaign and the Russian government and whether there 
was any coordination between the campaign and Russia's efforts?"
    Director Coats. [Deleted.]

    37. Senator Blumenthal. Director Coats, did the President of the 
United States ever urge you to publically deny the existence of any 
evidence of collusion between the Trump campaign and Russia?
    Director Coats. [Deleted.]

    38. Senator Blumenthal. Director Coats, will you commit to the 
committee to review and turn over to the Special Counsel any documents 
within the intelligence community that record the President of the 
United States questioning or making requests of you with regards to the 
FBI's investigation?
    Director Coats. [Deleted.]

    39. Senator Blumenthal. Director Coats, are you aware of any past 
action or statements by the President perceived by senior intelligence 
officials as a threat to the independence of U.S. intelligence 
agencies?
    Director Coats. [Deleted.]

    40. Senator Blumenthal. Director Coats, will you commit to this 
committee to investigate reported efforts by the White House to 
``enlist senior members of the intelligence community to push back 
against suggestions that Trump associates were in frequent contact with 
Russian officials"?
    Director Coats. [Deleted.]

    41. Senator Blumenthal. Director Coats, do you agree with the 
President that the FBI's ongoing investigation is a ``witch hunt?"
    Director Coats. [Deleted.]
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                     asia-pacific area of operation
    42. Senator Hirono. Director Coats, U.S. National Security planning 
has for several years centered its policies in relation to the five 
major threats it faces. These include North Korea, Russia, China, Iran 
and transnational violent extremism. With four of these five threats in 
the Asia-Pacific AOR, do the Defense Intelligence Agency and other 
intelligence agencies have sufficient intelligence resources and 
capabilities in the region to be effective? If not, what additional 
resources are required?
    Director Coats. Mr. Coats for all. [Deleted.]
                    combating information operations
    43. Senator Hirono. Director Coats and Lt. Gen. Stewart, the use of 
information operations has increased across the globe, as demonstrated 
with Russian involvement in United States elections and China's bid to 
take over the South China Sea. What is the best strategy to combat 
these types of information campaigns? What types of intelligence assets 
can the U.S. invest in to support information sharing between our 
allies?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                 chinese actions in the south china sea
    44. Senator Hirono. Director Coats and Lt. Gen. Stewart, as China 
continues to pursue an active foreign policy--especially within the 
Asia Pacific region--highlighted by a firm stance on competing 
territorial claims in the East China Sea and South China Sea, what is 
the most effective strategy to combat China's aggressive actions?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    45. Senator Hirono. Director Coats and Lt. Gen. Stewart, what has 
been China's reaction to United States ``freedom of navigation'' 
activities in the region and how important are these actions to 
combatting China's advance in the region?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    46. Senator Hirono. Director Coats and Lt. Gen. Stewart, China and 
the Association of Southeast Asia Nations reached agreement on a draft 
code of conduct in the South China Sea. In your opinion how will this 
impact China's actions in the South China Sea? Is this a concrete step 
forward, or is it simply window dressing?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    47. Senator Hirono. Director Coats and Lt. Gen. Stewart, China is 
very active not only in Asia but also many other parts of the world 
with aid, construction, loans and other ``softpower'' projects. What do 
you see as their ultimate goal? Where are they trying to go with the 
military, economic and diplomatic actions?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                      north korean missile threat
    48. Senator Hirono. Director Coats and Lt. Gen. Stewart, it is 
clear that North Korea is committed to developing long-range missile 
technology. Most recently North Korea tested a medium-range ballistic 
missile that gave it critical information on developing a re-entry 
vehicle for nuclear warheads. It also demonstrated that North Korea has 
a missile capable of striking the US territory of Guam. I understand 
that this will likely include classified information but when do you 
estimate that North Korea will have the capability to strike Hawaii, 
Alaska and the Continental United States with an intercontinental 
ballistic missile? When do you estimate that North Korea will advance 
their nuclear program enough to produce a miniaturized nuclear payload 
for an intercontinental ballistic missile?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]

    49. Senator Hirono. Director Coats and Lt. Gen. Stewart, regarding 
the Trump Administration's diplomatic push at the UN, is it your 
understanding that the Administration intends to maintain pursuit of 
fully implementing UN sanctions and a diplomatic, multi-lateral 
approach to North Korea? What can you tell us about how those 
initiatives are being received by the Chinese and North Koreans?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               __________
                Questions Submitted by Senator Tim Kaine
                                 jcpoa
    50. Senator Kaine. Director Coats and Lt. Gen. Stewart, in the 
hearing you were asked if the current nuclear agreement with Iran 
accomplishes the goal of denying Iran a nuclear capability. Director 
Coats you responded, ``It would only accomplish a deferment.'' Lt. Gen. 
Stewart you responded, ``It does not deny forever, it defers for 10 
years.'' Are you aware that the first paragraph of the Joint 
Comprehensive Plan of Action agreement preface states ``Iran reaffirms 
that under no circumstances will Iran ever seek, develop or acquire any 
nuclear weapons''?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                      iran versus sunni extremism
    51. Senator Kaine. Director Coats and Lt. Gen. Stewart, which is a 
greater threat to the United States, Iran or Sunni extremism?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
             russia interference in united states elections
    52. Senator Kaine. Director Coats, during the hearing you offered, 
``We do not have an assessment that any of our voting machines were 
tampered in this election.'' Public reporting from multiple sources 
cite Russian cyberattacks against State Boards of Elections and voting 
equipment, including the article ``Putin targeted election, intel 
says'' by Brian Bennett published on January 8, 2017 in the Chicago 
Tribune. It states ``Russian intelligence `obtained and maintained 
access to elements of multiple US state or local electoral boards,' 
adding that Russian spies began collecting information on equipment 
used in United States elections in early 2014.'' Is this statement 
accurate?
    Director Coats. [Deleted.]
                                 turkey
    53. Senator Kaine. Director Coats and Lt. Gen. Stewart, Turkey is 
our NATO ally and a key strategic partner in our fight against ISIS but 
President Erdogan has shown increasingly authoritarian tendencies, a 
closer relationship with Russia, and dispensed his thuggish security 
detail to attack peaceful protestors in the streets of Washington, D.C. 
Turkey appears to be evolving into an authoritarian regime at odds with 
international values. Are you concerned this new path by the regime 
will affect U.S. counter terrorism efforts?
    Director Coats. [Deleted.]
    Lt. Gen. Stewart. [Deleted.]
                               __________
            Questions Submitted by Senator Elizabeth Warren
       ic assessment of cybersecurity of election infrastructure
    54. Senator Warren. Director Coats, during your testimony before 
the SASC, you said that the intelligence community ``do[es] not have an 
assessment that any of our voting machines were tampered in this [2016] 
election.'' Did the Office of the Director of National Intelligence 
instruct the intelligence agencies to actively assess whether this 
occurred, either before or after you were confirmed as Director, or 
does your statement rely instead on reporting from state and local 
entities?
    Director Coats. [Deleted.]

    55. Senator Warren. Director Coats, to your knowledge, did any of 
the intelligence agencies make an assessment of the security of voting 
machines under their own authority, and if so, which agencies?
    Director Coats. [Deleted.]
         ic assessment of russian relationship with north korea
    56. Senator Warren. Director Coats, according to a recent Bloomberg 
editorial, shortly after Russia's illegal invasion of Ukraine in 2014, 
Vladimir Putin wrote off 90 percent of North Korea's $11 billion debt 
to Russia. In 2013, Russia completed a railroad linking the two 
countries. Approximately 50,000 North Korean laborers work at 
construction sites in Russia, and a ferry operates between the Russian 
city of Vladivostok and a North Korean port. Director Coats, you were 
not able to answer Senator Gillibrand's question about the relationship 
between Russia and North Korea in an unclassified setting. Please 
provide your analysis of Russia's role in North Korea, and whether 
Russia is working against our interests in the broader Asia-Pacific 
region, in a classified format if necessary.
    Director Coats. [Deleted.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
